                  UNITED STATES DEPARTMENT OF EDUCATION

                                 OFFICE OF INSPECTOR GENERAL

                                      61 FORSYTH STREET, Room 18T71 

                                         ATLANTA, GEORGIA 30303


Telephone: (404) 562-6470                                                                          Fax: (404) 562-6509


Memorandum

DATE:            September 25, 2003

TO:              Theresa S. Shaw
                 Chief Operating Officer
                 Federal Student Aid

FROM:            J. Wayne Bynum               /s/ J. Wayne Bynum
                 Regional Inspector General for Audit
                 Region IV

SUBJECT:         Final Audit Report
                 Advanced Career Training Institute’s Administration of the Title IV
                 Higher Education Act Programs
                 Control Number ED-OIG/A04-B0019


You have been designated as the action official responsible for the resolution of the findings and 

recommendations in the attached final report. We have also provided a copy to the auditee and 

to your Audit Liaison Officer. 


The Office of Inspector General is required to review and approve your proposed Program

Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is 

forwarded to the auditee. Please provide these documents for review, electronically if you wish 

or by mail, to: 


                 J. Wayne Bynum

                 Regional Inspector General, Region IV 

                 U.S. Department of Education 

                 Office of Inspector General 

                 61 Forsyth Street, Room 18T71 

                 Atlanta, GA 30303 


In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector 

General is required to report to Congress twice a year on the number of audits unresolved. In 

addition, any report unresolved after 180 days from the date of issuance will be shown as 

overdue in our reports to Congress. 




   Our mission is to promote the efficient and effective use of taxpayer dollars in support of American education.
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.



Attachment
      Advanced Career Training Institute’s Administration
        of the Title IV Higher Education Act Programs




                                 FINAL AUDIT REPORT 





                                            ED-OIG/A04-B0019 

                                             September 2003



Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                                Office of Inspector General
Department’s programs and operations.                                         Atlanta, Georgia
Statements that managerial practices need improvements, as well as 

other conclusions and recommendations in this report, represent the 

   opinions of the Office of Inspector General. Determinations of

    corrective action to be taken will be made by the appropriate 

                  Department of Education officials. 



   In accordance with the Freedom of Information Act (5 U.S.C. 

    § 552), reports issued by the Office of Inspector General are 

 available, if requested, to members of the press and general public 

    to the extent information contained therein is not subject to 

                        exemptions in the Act.

                        TABLE OF CONTENTS


                                          Page
EXECUTIVE SUMMARY……………………………………………………………………...1

AUDIT RESULTS……………………………………………………………………………….4

     Finding No. 1 – ACT Failed to Meet the 90/10 Rule in FY 1999……………...………4
     Recommendations…………………………………………………………………..……7

     Finding No. 2 – ACT Breached Its Fiduciary Responsibility Regarding the
     Use of Title IV Funds.……………………………………………………………….….14
     Recommendations…..…………………………………………………………………..17

     Finding No. 3 – ACT Improperly Disbursed Title IV Funds to Ineligible
     Students …………………………..……………………………………………………..18
     Recommendations………………………………………………………………………19

     Finding No. 4 – ACT Did Not Reconcile Direct Loan Funds….……………………..20
     Recommendation….………………………………………………………….…………21

     Finding No. 5 – ACT Failed to Properly Calculate or Make Refunds for
     Students Who Withdrew…………..…………………..……………………………….22
     Recommendations .......…………………………………………………………………23

     Finding No. 6 - ACT Did Not Demonstrate Administrative Capability……..…..…24
     Recommendation……………………………………………………………………….25

OTHER MATTERS……………………………………………………………………………26
BACKGROUND…………………………………………………………………………..…....27
OBJECTIVES, SCOPE, AND METHODOLOGY……..………………………………..……27
STATEMENT ON MANAGEMENT CONTROLS ...………………………………….……29


ATTACHMENT A – OIG 90/10 CALCULATION FOR FY 1999……….……….………..30
ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT REPORT………………31




ED-OIG/A04-B0019            FINAL REPORT                            Page i
                              EXECUTIVE SUMMARY


Advanced Career Training Institute (ACT) is a proprietary institution with campuses in Atlanta
and Riverdale, GA, and Jacksonville, FL. The purpose of the audit was to determine whether
ACT administered the student financial assistance programs in accordance with Title IV of the
Higher Education Act (HEA) of 1965, as amended, and applicable regulations. Specifically, we
reviewed ACT’s compliance with the requirements for (1) institutional eligibility, including the
90/10 Rule, accreditation, and State licensing, (2) cash management, (3) William D. Ford Federal
Direct Loan (Direct Loan) reconciliation, (4) refunds and the return of Title IV funds, (5) student
eligibility, (6) program length, and (7) commissioned sales. Audit coverage included award
years 1998-1999, 1999-2000, and 2000-2001. For purpose of the 90/10 revenue calculations and
cash management review, audit coverage included school fiscal years (FY) 1999 through 2001.
For program length, audit coverage included school FY 2001. During its school FY’s 1999
through 2001, ACT received $23.5 million in Title IV funds.

We identified problems with the 90/10 Rule revenue percentage, cash management, student
eligibility, Direct Loan reconciliation, and refunds and the return of funds. Based on the
significance of these findings, we concluded that ACT did not meet the administrative capability
standards required to participate in the Title IV programs.

To participate in the Title IV programs, at least 10 percent of a proprietary institution’s revenues
must come from sources that are not derived from funds provided under Title IV (90/10 Rule).
ACT determined a 90/10 revenue percentage of 85.1. However, when it calculated the 90/10
revenue percentages, ACT did not properly determine the amount of Title IV revenue used to
satisfy tuition, fees, and other institutional charges to students and adjust for credit balances on
student accounts and cash paid to students. We determined that ACT’s Title IV revenue was
91.6 percent for school FY 1999. Failure to meet the 90/10 Rule in a fiscal year results in
ineligibility for the subsequent fiscal year. As a result, ACT was not eligible for the $7.4 million
in Title IV funds it received during FY 2000.

Institutions must act with competency and integrity in administering the Title IV programs and in
accounting for the funds received. ACT breached its fiduciary responsibility to the Secretary
when it used Title IV funds for other than the intended purpose. It was ACT policy to transfer
Title IV funds from its Federal Funds account to its operating account one day after the funds
were drawn down from the Department. Such transfers are to be done only when the funds are
used for their intended purpose (i.e., disbursed to students). ACT did not know who the intended
student beneficiaries were for the funds transferred to the operating account. During FY’s 1999,
2000, and 2001, Title IV drawdowns transferred to the operating account exceeded the amounts
posted to student accounts by almost $995,000.

Title IV funds drawn down from the Department are to be disbursed to students within three
business days. Over two-thirds of the student accounts that we reviewed were not posted within


ED-OIG/A04-B0019                    FINAL REPORT                               Page 1 of 62
three business days after the funds were drawn down. The elapsed days between draw down and
disbursement to student accounts ranged from 4 to 648 days.

ACT improperly disbursed $67,744 in Title IV funds to ineligible students by disbursing funds to
students more than 90 days after their last date of attendance, making second Direct Loan
disbursements to students who had withdrawn from school, and disbursing funds to students who
did not pass the ability-to-benefit test.

Direct loan funds are to be reconciled on a monthly basis. ACT did not reconcile Direct Loan
awards during FY’s 1999 and 2000. ACT officials were attempting to reconcile Direct Loan
funds at the time of this audit. ACT returned $900,000 in unaccounted for Direct Loan funds to
the Department in October 2001.

Institutions are required to calculate returns of Title IV funds for students who withdraw from
school. Of the 51 student files reviewed that required refunds, ACT failed to make refunds for
ten students and incorrectly calculated refunds for two students. ACT has a history of refund
problems. Its FY 1999 and FY 2000 compliance audits contained findings pertaining to
untimely refunds and the failure to make refunds. These findings resulted in the Department
requesting a letter of credit for $3.5 million from ACT’s parent corporation, International
Education Corporation (IEC).

We recommend that the Chief Operating Officer for Federal Student Aid:
• 	 Recover $7.4 million of Title IV funds provided to ACT during FY 2000;
• 	 Recover $67,7441 in Federal funds improperly disbursed to students and $9,619 for refunds
    not made or made in the incorrect amount; and
• 	 Impose appropriate action against ACT, up to and including terminating participation in the
    Title IV student financial assistance programs.

If ACT is allowed to continue to participate in the Title IV programs, we recommend that the
Chief Operating Officer for Federal Student Aid require ACT to establish policies, procedures,
and management controls to ensure the following:
    • 	 The 90/10 Rule revenue percentage is accurately calculated and reported,
    • 	 Title IV funds are maintained in the interest-bearing Federal Funds account until the
        funds are disbursed to students,
    • 	 Title IV funds are disbursed to students within three business days,
    • 	 Ineligible students do not receive Title IV disbursements,
    • 	 Direct Loans are reconciled on a monthly basis, and
    • 	 Refunds are calculated accurately and timely returned to the Department.

In its written response to the draft report, a copy of which is included as Attachment B to this
report, ACT disagreed that it failed to meet the requirements of the 90/10 Rule for school
FY 1999. ACT stated that the report was fundamentally flawed in failing to apply the cash basis
of accounting and in the treatment of third-party loans received by certain students. ACT

1
 $3,852 of this amount was disbursed during school FY 2000. If it is determined that ACT must return the
$7.4 million in Title IV funds received during school FY 2000, the $3,852 should be deducted from the $67,744.
ED-OIG/A04-B0019                         FINAL REPORT 	                                   Page 2 of 62
accepted OIG’s figure for Title IV revenue, but disagreed with some of OIG’s figures for
non-Title IV revenue. ACT provided supplemental information regarding non-Title IV revenue.
Using its revised 90/10 non-Title IV revenue figures, ACT concluded that it met the 90/10 Rule.

ACT agreed that it did not consistently disburse Title IV funds to students in accordance with
Departmental requirements. ACT acknowledged that during the period covered by the audit,
Title IV funds were not consistently credited to student accounts within three business days.
ACT also agreed that it did not reconcile its Direct Loan accounts on a monthly basis during
1988-1999 and 1999-2000 and that subsequent to that time it initiated a reconciliation of its
Direct Loan funds.

ACT provided additional information for the students identified as receiving improper Title IV
disbursements, and stated that it had implemented various new procedures and provided
additional training to its staff to ensure that Title IV funds are not disbursed to ineligible
students. ACT also provided additional information for the withdrawn students for which ACT
failed to make Title IV refunds or incorrectly calculated refunds.

ACT acknowledged that it had administrative and cash management problems in the past. ACT
stated that it tried to demonstrate that is has devoted extensive attention and resources to
correcting these problems. Based on the corrective actions taken to address the issues identified
in the report, and its current capabilities and processes, ACT does not believe that it should be
limited, suspended, or terminated from future participation in the Title IV programs.

We disagree with ACT’s position that the cash basis of accounting should be used without regard
to when and for what Title IV funds are used. Title IV funds are not used for the purpose
intended until the funds are disbursed to students. Also, only Title IV and non-Title IV funds
used to satisfy tuition, fees, and other institutional charges within the fiscal year can be included
in the annual 90/10 revenue computation. We revised some of the non-Title IV revenue figures
based on the additional information provided by ACT. However, based on the revised figures,
we found that ACT still failed to meet the 90/10 Rule for school FY 1999. We also made
adjustments to Findings 3 and 5 based on ACT’s written response to the draft audit report. We
summarized ACT’s response after each finding and included them in their entirety as
Attachment B to this report. ACT also provided supporting documentation with the written
response to the draft report, which is available upon request.




ED-OIG/A04-B0019                    FINAL REPORT                                Page 3 of 62
                                    AUDIT RESULTS


Our audit objective was to determine whether ACT administered the student financial assistance
programs in accordance with Title IV of the Higher Education Act of 1965, as amended, and
applicable regulations. Specifically, we reviewed ACT’s compliance with the requirements for
(1) institutional eligibility, including the 90/10 Rule, accreditation, and State licensing, (2) cash
management, (3) Direct Loan reconciliation, (4) refunds and the return of Title IV funds,
(5) student eligibility, (6) program length, and (7) commissioned sales. Audit coverage included
award years 1998-1999, 1999-2000, and 2000-2001. For purposes of the 90/10 revenue
calculation and cash management review, audit coverage included school FY’s 1999 through
2001. For program length, audit coverage included school FY 2001.

We did not identify compliance problems with accreditation, licensing, program length, or
commissioned sales. However, we identified problems with the 90/10 Rule revenue percentage,
cash management, student eligibility, Direct Loan reconciliation, and refunds and the return of
funds. Based on the significance of these findings, we concluded that ACT did not meet the
administrative capability standards required to participate in the Title IV programs.

Finding No. 1 – ACT Failed to Meet the 90/10 Rule in FY 1999
International Education Corporation (IEC), ACT’s parent corporation, did not properly
determine the amount of Title IV revenue used to satisfy tuition, fees, and other institutional
charges to students when calculating the 90/10 revenue percentages for ACT. IEC also did not
properly adjust for credit balances on student accounts or cash payments to students. ACT
reported 90/10 calculations of less than 90 percent for school FY’s 1999, 2000, and 2001.
Although ACT determined a 90/10 revenue percentage of 85.1 for school FY 1999, our
calculation for this school fiscal year was 91.6 percent. As a result of failing to meet the
90/10 eligibility requirement for school FY 1999, ACT was ineligible for the $7.4 million in
Title IV funds it received for school FY 2000.

Section 102(b) of the Higher Education Act (HEA), as amended, specifies that a proprietary
institution of higher education is -

     A school that . . . has at least 10 percent of the school’s revenues from
     sources that are not derived from funds provided under [T]itle IV, as
     determined in accordance with regulations prescribed by the Secretary.

This institutional eligibility requirement is commonly referred to as the 90/10 Rule. Institutions
are required to calculate the 90/10 revenue percent annually. If the result of the calculation is
greater than 90 percent, the institution becomes ineligible to participate in the Title IV programs




ED-OIG/A04-B0019                     FINAL REPORT                                Page 4 of 62
the following year. The regulations at 34 C.F.R. § 600.5(d)(1)2 provide the following formula to
be used in calculating the revenue percentage:

             Title IV, HEA program funds the institution used to satisfy tuition, fees,
                            and other institutional charges to students.
             —————————————————————————————
           The sum of revenues generated by the institution from: Tuition, fees, and other
           institutional charges for students enrolled in eligible programs as defined in
           34 CFR [§] 668.8; and activities conducted by the institution, to the extent not
           included in tuition, fees, and other institutional charges, that are necessary for
           the education or training of its students who are enrolled in those eligible
           programs.

90/10 Revenue Not Properly Calculated
IEC used its CLASS accounting system to calculate the 90/10 revenue percentages. The CLASS
system contained the student ledgers, which showed the disbursement of Title IV and
non-Title IV funds to student accounts. The CLASS system contained two date fields to indicate
the date that students received Title IV and non-Title IV funds. The “transaction date” field
contained the date that the disbursement should have occurred per ACT/IEC officials. ACT/IEC
staff entered the transaction dates into the CLASS system. The “posting date” field contained
the date that the disbursement was actually posted to student accounts. The posting date was
automatically generated by the computer system.

IEC used the transaction date data to determine revenue for the 90/10 calculation. As a result of
using the transaction date data, the 90/10 calculation did not reflect funds that were actually
disbursed to students in the fiscal year. By using the transaction date data, Title IV revenue was
understated and non-Title IV revenue was overstated. Attachment A illustrates the extent of the
under and overstatements of revenue. To determine revenue for the 90/10 calculation, we used
the CLASS system posting date data because it represented the date that funds were actually
disbursed to students.

Incorrect Amount for Sallie Mae Recourse Loans Included in the 90/10 Calculation
As a result of using transaction date data, ACT included $745,222 in Student Loan Marketing
Association (Sallie Mae) recourse loans as non-Title IV revenue in the 90/10 calculation. We
determined that $538,661.90 in Sallie Mae recourse loans was actually posted and disbursed to
student accounts during school FY 1999.

According to the terms of the contract with Sallie Mae, IEC was required to deposit 30 percent of
the original principal balance of every loan originated into an escrow account. The escrow was
funded either by ACT depositing 30 percent or Sallie Mae retaining 30 percent from funds
delivered. The contract required ACT to replenish the escrow account if default payments
reduced the balance below 20 percent of the principal balance of all outstanding loans. In it’s
original calculation, ACT excluded $40,124 for the escrow requirement. For our initial 90/10
calculation, we included the Sallie Mae recourse loans posted to student accounts during the
fiscal year and adjusted for the full amount (30 percent) required to be escrowed. However, in
2
    Unless otherwise noted, all 34 C.F.R. citations are to the July 1, 1998, volume.
ED-OIG/A04-B0019                             FINAL REPORT                              Page 5 of 62
its response to the draft report, ACT provided documentation that $41,259 was deposited in the
escrow account during its fiscal year 1999. In finalizing this report, we used the $41,259 figure
for the Sallie Mae escrow adjustment in calculating 90/10 revenue (see Attachment A).

Credit Balances and Cash Paid to Students Not Taken into Account for the 90/10
Calculation
IEC included both Title IV and non-Title IV credit balances (funds in excess of what the
institution used to satisfy tuition, fees, and other institutional charges) in the 90/10 calculations.
ACT also failed to subtract Title IV and non-Title IV cash paid to students.

We used ACT’s CLASS system to identify students who had credit balances on their accounts as
of the last day of the fiscal year, determined the cause for the credit balances, and adjusted the
90/10 calculation by subtracting the credit balance amounts from the respective category
(Title IV or non-Title IV). Funds charged to student accounts in excess of tuition and fees
(causing a credit balance) were not used in our 90/10 calculations.

We also used the CLASS system to identify students who received cash payments as a result of
credit balances, determined the cause for the cash payments, and adjusted the 90/10 calculation
by subtracting the cash payments from the respective category (Title IV or non-Title IV).

90/10 Eligibility Requirement Not Met
The 90/10 revenue originally reported in ACT’s audited financial statements was 86.2 percent
for FY 1999. Based on its review of the draft audit report, ACT amended some of its revenue
figures and computed 90/10 revenue of 85.1 percent. Our calculation of the 90/10 revenue
percentage using posting date data and adjusting for credit balances and cash paid to students
(and additional non-Title IV revenue documentation provided by ACT as a result of the draft
audit report) revealed that ACT’s 90/10 percentage was 91.6 for school FY 1999. Since the
Title IV revenue percentage for FY 1999 was greater than 90 percent, ACT was not eligible to
participate in the Title IV programs for its FY 2000. ACT received $7,399,072 in Title IV funds
($5,201,173 in Direct Loan funds, $2,075,046 in Pell grants, $75,128 in Federal Supplemental
Education Opportunity Grant (FSEOG) funds, and $47,725 in Federal Work Study) during its
FY 2000. See Attachment A for the 90/10 calculation for FY 1999.

We also performed an alternative 90/10 calculation using Title IV receipts per the Department’s
Grants Administration Payments System (GAPS) because ACT had not posted student accounts
in a timely manner and in some cases not at all. GAPS represents all Title IV fund drawdowns
from the Department. If an institution complies with Title IV regulations, all funds drawn down
are disbursed to students within three business days. Using the GAPS Title IV draw down
figures and making adjustments for funds returned, refunds, and credit balances per the CLASS
system posting date data, we calculated a 90/10 revenue percentage of 91.7. (See Attachment A
for this calculation.)

During the audit exit conference, ACT/IEC officials said they did not disagree with the facts
presented regarding the CLASS accounting system transaction dates being used to calculate the
90/10 revenue percentages. Also, the officials did not disagree that credit balances and cash paid
to students should be taken into account for the 90/10 revenue calculations.

ED-OIG/A04-B0019                     FINAL REPORT                                 Page 6 of 62
RECOMMENDATIONS
We recommend that the Chief Operating Officer for Federal Student Aid require ACT to:

1.1 	 Return the $7,399,072 of Title IV funds received during the period November 1, 1999,
      through October 31, 2000.

1.2 	 Ensure that the 90/10 Rule revenue requirement is accurately calculated by:
      • 	 Using the correct date that funds are disbursed to students for the Title IV and
          non-Title IV revenue portions of the calculation,
      • 	 Including the correct amount of Sallie Mae recourse loans in the non-Title IV portion of
          the calculation, and
      • 	 Adjusting for credit balances and cash paid to students.

ACT RESPONSE AND OIG COMMENTS

In its June 21, 2003, written response to the draft audit report, ACT stated that OIG’s
determination that ACT failed to meet the requirements of the 90/10 Rule for school FY 1999
was based on an incomplete and faulty analysis of the data underlying the school’s 90/10
calculation for that year. ACT stated that the report was fundamentally flawed in failing to
apply the cash basis of accounting and in the treatment of third-party loans received by certain
students. It is ACT’s position that it did not fail the 90/10 Rule for school FY 1999. ACT
provided a detailed response to the following areas: cash basis of accounting, Sallie Mae loan
revenue, Sallie Mae escrow account, Sallie Mae credit balance adjustments, and sale of student
retail installment contracts (RIC). ACT’s full written response is included as Attachment B.

Cash Basis of Accounting

ACT Response. ACT cited Departmental regulations regarding the requirement for institutions
to use the cash basis of accounting whereby revenue is recognized by an entity when that entity
receives cash; i.e., the date that the revenue is actually received. ACT cited regulations that
require institutions to use the cash basis of accounting in reporting Title IV and non-Title IV
revenue for the 90/10 revenue calculation. ACT focused on the point that, in calculating
revenue, institutions are required to include Title IV and non-Title IV funds received during the
fiscal year. ACT stated that the regulations require no more than that the funds be received by
the institution, which is satisfied when the funds are deposited into the institution’s bank account.

ACT stated that the issue of how to calculate the Sallie Mae loan revenue in the ratio must be
analyzed under the precise terms of the 90/10 Rule, and specifically the requirement to focus on
the funds “received” by the institution in the applicable year. By its terms, the regulation
requires that the funds be received by the institution, which is satisfied when the funds are
deposited into the institution’s bank account. Cash-basis accounting focuses exclusively on
when cash is received or paid. It is plain that funds that have been deposited in an institution’s
bank account for the use of the institution have been received by that institution.


ED-OIG/A04-B0019                    FINAL REPORT 	                             Page 7 of 62
OIG Comments. The formula for the 90/10 revenue computation provides that funds used to
satisfy tuition, fees, and other institutional charges are to be included in the computation. Until
funds are posted to a student’s account, the funds have not been used to satisfy tuition, fees, and
other institutional charges nor may they be considered to be revenue generated from tuition, fees,
and other institutional charges for students enrolled in eligible programs. The fact that funds
have been transferred to an institution’s account does not mean that those funds have been used
for tuition, fees, and other institutional charges. Until the funds have been posted to a student’s
account, an institution cannot know what, if any, portion is cash basis revenue because some
funds may be disbursed directly to the student for non-institutional expenses, and some of the
remaining funds may be used to satisfy tuition, fees, and other institutional charges. In the case
of ACT, some funds received were not disbursed at all.

In the preamble to the final regulations published on October 29, 1999, 64 Federal Register 

No. 209, 58610 (October 29, 1999 Preamble), the Department clarified that “the regulation 

applies to cash received used to satisfy tuition, fees and other institutional charges.” Therefore, 

funds are to be received and used within the fiscal year in order to be included as 90/10 revenue. 

The receipt of cash is not revenue for 90/10 purposes until it is posted to student accounts and 

used to satisfy tuition, fees, and other institutional charges. 


Our position is further supported by ACT’s inadequate policies and procedures in place over the 

administration of Title IV funds during the audit period. As discussed in Finding 2 of this report, 

ACT breached its fiduciary responsibility regarding the use of Title IV funds by transferring 

Title IV funds to its operating account one day after drawing down the funds from the 

Department and not disbursing the funds to student accounts within three business days. In some

instances, funds were not disbursed to student accounts at all. By basing its 90/10 calculation on 

the date funds are received, ACT would include funds in the calculation that have not been used 

to cover tuition fees, and other institutional charges. 


Sallie Mae Loan Revenue

ACT Response. ACT utilized the CLASS software system for accounting for student aid
funding, including Title IV funding, and maintaining records regarding student activity. The
CLASS system provides a number of data fields to track information related to student accounts,
including a “transaction date” and a “posting date.” Under the CLASS system, the transaction
date was entered on a student account only after ACT had received the funds with respect to that
student. In most cases, such funds were received into the ACT bank account managed through
the IEC corporate office so that, upon receipt, the corporate office personnel would notify ACT
through a transmittal document that the funds had been received and instruct ACT to credit the
student’s account using the transmittal date as the transaction date.

With regard to the receipt of loan funds from Sallie Mae, the transaction date was supported by
receipts for wired funds, which were dated on or before the transaction date for the affected
students. The transaction date was entered into the CLASS system after the IEC corporate office
or ACT personnel had confirmed that the applicable funds had been received into the ACT bank
account and were available, without restriction, to pay the obligations of the student borrowers.


ED-OIG/A04-B0019                    FINAL REPORT                               Page 8 of 62
All funds are considered credited to the student’s account as of the transaction date entered for
those funds.

The audit report uses the posting date to determine when funds, including Sallie Mae loan funds,
were received for purposes of the 90/10 Rule. The OIG only counted Sallie Mae loans in the
90/10 ratio if such loans had a posting date on or before October 31, 1999. This resulted in the
exclusion of $246,684 in Sallie Mae loan funds for 26 students whose accounts had transaction
dates prior to October 31, 1999, but posting dates on or after November 1, 1999. In the case of
all 26 students, ACT had received $246,684 from Sallie Mae on or before the transaction date.
These funds must be counted for a total of $785,346 in Sallie Mae loan funds in the school’s
90/10 calculation for FY 1999.

OIG’s use of the figure derived from the posting date rather than the transaction date is wrong as
a matter of fact and law. The report would suggest that the transaction date is nothing but a
prediction of the date that a transaction “should” occur. This is a fundamental misunderstanding,
which ignores that ACT never determined and entered the transaction date for Sallie Mae loans
into the CLASS system until such funds had been received into ACT’s bank account. ACT
treated, and continues to treat, the transaction date as the date that funds are credited to the
student’s account.

ACT treated the transaction date as the date that funds were credited to its student’s accounts as a
payment of the student’s obligations. Under the Sallie Mae Loan Agreement, it is clear that
Sallie Mae actually disbursed funds to the students (as identified by name and exact dollar
amount on the wire transmittals) when it wired funds on behalf of those students to the ACT
bank account. ACT then entered a transaction date on the student’s account to reflect that the
funds for that student had been received and credited as a payment on the student’s account on or
before such transaction date.

It is notable that 21 of the 26 loans with transaction dates prior to October 31, 1999, have a
posting date of November 1, 1999. For these 21 loans totaling $218,895, ACT made the manual
accounting entry that generated the posting date on November 1st, the first business day
following the close of FY 1999. For the report to deny that these loans belong in FY 1999 is to
suggest that this issue should be decided by the mechanical question of when certain entries were
made in the CLASS system, rather than when the funds were actually received by ACT and
credited by the school to the student’s account to pay the student’s charges.

OIG Comments. To be counted for 90/10 purposes, Title IV and non-Title IV funds must be
used to satisfy tuition, fees, and other institutional charges. Funds cannot be considered used
until they are posted to student accounts. Regardless of the transaction date information
provided by ACT, funds cannot be included in the 90/10 revenue calculation until they have been
used to satisfy tuition, fees, and other institutional charges.

Our analysis of the transaction date data revealed that the transaction dates were not verifiable.
Our review of a random sample of 74 student files who received Title IV funds during academic
years 1999-2000 or 2000-2001 revealed that the transaction date data showed that Title IV funds
were disbursed to 18 student accounts greater than three days from the date the funds were drawn

ED-OIG/A04-B0019                    FINAL REPORT                               Page 9 of 62
down. The number of days ranged from 4 to 368. In addition, the transaction date data showed
that funds were disbursed to 11 students before the date the funds were drawn down. Therefore,
we concluded that the transaction date data were not reliable for 90/10 computation purposes.

Since the posting date was automatically generated by the computer system and represented the
date that the disbursements were actually credited to student accounts (and, therefore, used for
the intended purpose), we concluded that the posting date data reflected the date that the
disbursements occurred.

Regarding the exclusion of $246,684 in Sallie Mae loan funds for 26 students whose accounts
had transaction dates prior to October 31, 1999, but posting dates on or after November 1, 1999,
the regulations state that funds are to be included in the 90/10 revenue calculation in the fiscal
year that the funds are used to satisfy tuition, fees, and other institutional charges. The treatment
of such funds was addressed in the October 29, 1999 Preamble to the 64 Federal Register
No. 209, 58610 (October 29, 1999). The preamble provided the following example for an
institution whose fiscal year is a calendar year:

      On December 30, 1999, the institution disburses $100,000 of Title IV, HEA 

      program funds to students on their accounts, and credit balances occur because 

      the institution has not yet charged those accounts with related tuition and fees. 

      On January 3, 2000, the institution charges tuition and fees to the students’ 

      accounts, and uses all of those previously disbursed funds to pay the students’ 

      tuition and fee charges. For purposes of the 90/10 formula in 600.5 (d)(1), none 

      of the $100,000 would be included in the institution’s 90/10 calculation for its 

      1999 fiscal year because none of the funds had been used for tuition, fees, and 

      other institutional charges; all of the $100,000 would be included in the 

      institution’s 90/10 calculation for its 2000 fiscal year calculation, when the 

      funds were used to satisfy tuition, fees, and other institutional charges. 


      A similar result would apply if the institution drew down $100,000 of Title IV, 

      HEA program funds from the Department on December 30, 1999, but did not 

      pay those funds to students for institutional charges until January 3, 2000. 


The Sallie Mae recourse loans made by ACT on the last day of the fiscal year for the full cost
of tuition and fees closely resembled invalid institutional loans as outlined in Dear CPA
Letter 99-02 (CPA-99-02).3 Our analysis of the Sallie Mae recourse loans made to ACT students
in FY’s 1999 and 2000 revealed that if these loans had been institutional loans, they would not
have been considered valid. In November 1999, the OIG issued Dear CPA Letter 99-02
outlining the following tests: Evaluate whether the institutional loans are routinely repaid and
evaluate the timing of the loans. The Dear CPA Letter stated that an indication that institutional
loans are routinely repaid is whether the default rate exceeds 15 percent; and an indication that

3
 CPA Letter 99-02 was written in response to Dear Partner Letter GEN 99-33 to provide guidance to auditors in
evaluating the validity of institutional loans and scholarships. Dear Partner Letter GEN 99-33 established the
Department’s policy for accepting institutional loans and scholarships after the 1998 Reauthorization of the Higher
Education Act until new regulations went into effect on July 1, 2000. CPA Letter 99-02 was developed in
conjunction with and approved by the Department.
ED-OIG/A04-B0019                          FINAL REPORT                                     Page 10 of 62
institutional loans may not be valid would be where the majority of the loans are made at the end
of an institution’s fiscal year rather than at recurring intervals that are related to the institution’s
enrollment cycle. The letter stated that, in general, institutional loans would typically be made
around the time a student begins an academic year or new period of enrollment. We found that
the large Sallie Mae loans made to students failed these tests.

• 	 Loan Repayment
    During FY’s 1999 and 2000, students did not routinely repay the large Sallie Mae recourse
    loans. Of the 83 students who received a Sallie Mae recourse loan for the full cost of tuition
    and fees in October 1999 or 2000, ACT repurchased 35 (42 percent) of these loans within the
    following two years because students defaulted on them.

• 	 Timing of Loans
    During FY’s 1999 and 2000, the majority of the Sallie Mae recourse loans were made in
    October, the end of the institution’s fiscal year, rather than at recurring intervals related to the
    institutions enrollment cycles. Prior to October, ACT awarded very few Sallie Mae recourse
    loans and the amounts of the loans were not for the full cost of tuition and fees. We found
    that most Sallie Mae recourse loans made to students during October 1999 or 2000 were for a
    larger amount than during any other time during the fiscal year. We identified 83 Sallie Mae
    recourse loans that were made for the full costs of tuition and fees in October 1999 and 2000.
    Only 5 Sallie Mae recourse loans for the full cost of tuition and fees were made in months
    other than October.

As noted in the Other Matters section of this report, we reviewed the files of 61 of the 84
students who received large Sallie Mae recourse loans for the full cost of tuition and fees during
FY’s 1999, 2000, and 2001. Of the 61 student files reviewed:

• 	 53 students received cash payments (totaling $228,382) of the Sallie Mae loan proceeds.

• 	 40 students had Direct Loans prior to receiving the large Sallie Mae loans. Of these 40
    students, 29 cancelled their Direct Loans or ACT repaid the Direct Loans when the students
    obtained the large Sallie Mae loans.

• 	 15 students were eligible for Direct Loans, but took Sallie Mae loans instead.

• 	 9 Sallie Mae loans were cancelled by ACT during the first month of the next fiscal year.

• 	 35 Sallie Mae loans were repurchased by ACT within the following two years because the
    students defaulted on the loans.

Regarding the 26 Sallie Mae loans with posting dates after October 31, 1999, 17 of these
students already had Direct Loans and another 4 students had Pell grants. For these 21 students
who already had either Direct Loans or Pell grants, the Sallie Mae loans created credit balances
in the student accounts. Therefore, it is questionable whether these students needed the Sallie
Mae loans.


ED-OIG/A04-B0019                      FINAL REPORT 	                             Page 11 of 62
Sallie Mae Escrow Adjustment

ACT Response. In July 1999, ACT’s parent corporation, IEC, entered into an agreement with an
affiliate of Sallie Mae and Mid-City National Bank under which Sallie Mae agreed to make
privately funded loans to students who would otherwise not qualify for such loans due to their
credit history or other factors. Under the agreement, IEC agreed to establish and maintain an
escrow account to be equal to 30 percent of the original principal balance of each loan made by
Sallie Mae to ACT students. IEC had the option of funding the escrow account through its own
payments or agreeing that Sallie Mae could withhold funds for that purpose from new loan
disbursements. IEC further agreed to credit the student borrower with 100 percent of the loan
amount for payment of tuition and fees or other costs of education reflecting that these were
loans from Sallie Mae to the students for the benefit of the students.

The report adjusts the Sallie Mae loans included in the 90/10 ratio by reducing the total loan
principal by the 30 percent that would be paid into the escrow account. Thus, the OIG input its
own figure of $161,599 (representing 30 percent of the loan amount of $538,662) even though
actual cash transactions in the escrow account were significantly less. As of October 31, 1999,
ACT or Sallie Mae had deposited the sum of $41,259 in the escrow account. This figure is
slightly higher than the figure cited in the report due to the discovery of one additional payment
to the escrow account. Subsequently, in school FY 2000, ACT made payments to bring the
escrow account up to the customary 30 percent coverage.

OIG Comments. ACT provided documentation to support that $41,259 was placed in the escrow
account during FY 1999. Since most of the Sallie Mae loans were made on October 29, 1999,
we agree that it is reasonable that funds would not have been deposited in the escrow account for
these loans until November (i.e., the beginning of the next fiscal year). We agree with this
treatment and have used the $41,259 figure in our 90/10 revenue calculation (see Attachment A).

Although we agree to this treatment of the escrow for purposes of the 90/10 revenue calculation,
it should be noted that IEC had an agreement with Sallie Mae Financial Corporation to allow
IEC to defer replenishment of the reserve account held with Sallie Mae until the first month of
the fiscal year. In September 2001, the Sallie Mae Financial Corporation and IEC mutually
agreed to allow IEC “to defer replenish the reserve accounts for the months of August and
September 2001 . . . and replenish the reserve accounts after October 31, 2001, but prior to
November 10, 2001.” According to the letter, this was done to help IEC “satisfy U.S.
Department of Education regulation generally referred to as the 90/10 Rule.” By deferring the
replenishment of the escrow account, ACT reported no repurchases during these months, thus
artificially inflating the non-Title IV cash portion of the calculation. In addition, ACT deferred
Title IV draws during the last months of the fiscal year until the first month of the next fiscal
year to help meet the 90/10 eligibility requirement.




ED-OIG/A04-B0019                    FINAL REPORT                             Page 12 of 62
Sallie Mae Credit Balance Adjustment

ACT Response. The OIG significantly reduced the value of the Sallie Mae loans received by
ACT by subtracting for credit balances on student accounts. The report reduces the value of the
Sallie Mae loan principal based on credit balances in the amount of $148,065. That figure
represents a 30 percent reduction of the $211,521 in credit balances on the student accounts. The
OIG made the 30 percent adjustment since the OIG also reduced the Sallie Mae loan principal by
30 percent based on the OIG’s interpretation of the requirements of the escrow account. The
OIG adjustment for credit balances is based entirely on credit balances recorded on students’
accounts, without regard to when those credit balances were paid.

As of FY 1999, the Department had not issued any regulatory guidance specifically addressing
the treatment of credit balances in the 90/10 calculation. While the Secretary issued guidance in
the Federal Register of October 29, 1999, indicating that funds held as credit balances generally
are not counted in an institution’s 90/10 calculation, that guidance was published on the last
business day of the school’s FY 1999, in connection with regulatory revisions that did not take
effect until July 1, 2000. As a result, the exclusion of credit balances from the 90/10 calculation
was not expressly called for until FY 2000.

OIG Comments. We identified $211,521 in credit balance adjustments during school FY 1999.
We initially reduced this amount by 30 percent in the draft report to allow for the Sallie Mae
escrow account. However, since we agree to limit the Sallie Mae escrow account adjustment to
the amount deposited in escrow during FY 1999 ($41,259), we used the $211,521 credit balance
in the final report (see Attachment A).

The regulations provide that credit balances occur whenever an institution disburses Title IV
funds by crediting a student’s account and the total amount of all Title IV funds credited exceeds
the amount of tuition and fees, room and board, and other authorized charges (34 CFR
668.164(e)). In other words, a credit balance is money credited to a student’s account that is not
being used to pay for tuition, fees, and other institutional charges. At the point that there is a
credit balance, the funds have not been used for tuition, fees, and other institutional charges and
cannot be used for 90/10 purposes. The preamble to the final rule in the October 29, 1999,
Preamble, states “In general, funds held as credit balances in institutional accounts do not get
counted in the 90/10 formula in 600.5(d)(1).”

Sale of Institutional Retail Installment Contracts

ACT Response. The sale of institutional retail installment contracts (RIC) on October 29, 1999,
resulted in the receipt of an additional $90,295 in non-Title IV funds in FY 1999. This sale
transaction was mistakenly overlooked and the sale proceeds were not included in the 90/10
calculation as originally performed by ACT and its auditor. ACT discovered the sale documents
in preparing this response and presents them to the OIG for the first time in connection with this
response. This $90,295 was the payment received from an independent third party, as
demonstrated by the wire transfer records and purchase agreement. The schedule to the purchase
agreement identifies the student loans that were sold and generating revenue received by ACT in
FY 1999.

ED-OIG/A04-B0019                    FINAL REPORT                             Page 13 of 62
OIG Comments. ACT provided adequate documentation to support the receipt of an additional
$90,295 in non-Title IV funds for the sale of retail installment contracts (RIC) on October 29,
1999. We included this sale in our revised 90/10 revenue calculation. During the audit, ACT
provided documentation to support $22,375.26. Therefore, we adjusted the RIC sales to include
the amounts supported ($112,670.26). See Attachment A.

Finding No. 2 – ACT Breached Its Fiduciary Responsibility Regarding the
Use of Title IV Funds
ACT did not maintain Title IV funds in an interest-bearing account identified as containing
Federal funds. It was IEC policy to transfer Title IV funds to its operating account one day after
drawing down the funds from the Department. ACT did not disburse Title IV financial aid funds
to student accounts within three business days following the date the institution received the
funds, and in some cases the funds were not disbursed at all. As a result, not all Title IV funds
were used for their intended purpose. This failure to assure that Title IV funds were used for
their intended purpose placed ACT in violation of its fiduciary responsibility.

The regulations at 34 C.F.R. § 668.82(a), (b)(1), and (c) state that an institution:

     must at all times act with the competency and integrity necessary to qualify as 

     a fiduciary . . . . 


     In the capacity of a fiduciary . . . A participating institution is subject to the 

     highest standard of care and diligence in administering the programs and in 

     accounting to the Secretary for the funds received under those programs . . . . 


     The failure of a participating institution . . . to administer a Title IV, HEA 

     program, or to account for the funds that the institution . . . receives under 

     that program, in accordance with the highest standard of care and diligence 

     required of a fiduciary, constitutes grounds for . . . an emergency action 

     against the institution, a fine on the institution, or the limitation, suspension, 

     or termination of the institution’s participation in that program . . . . 


The regulations at 34 C.F.R § 668.161(b) state that “funds received by an institution
under the [T]itle IV, HEA programs are held in trust for the intended student
beneficiaries and the Secretary . . . . The institution, as a trustee of Federal funds, may
not use or hypothecate (i.e., use as collateral) [T]itle IV, HEA program funds for any
other purpose.”

The regulations at 34 C.F.R § 668.163(c)(2) state that for institutions drawing down
$3 million in the previous year “an institution must maintain Direct Loan, Federal Pell
Grant, FSEOG, and FWS program funds in an interest-bearing bank account . . . .” The
regulations at 34 C.F.R. § 668.166(a) provide that institutions are to disburse Title IV
funds to students or credit their accounts within three business days.


ED-OIG/A04-B0019                     FINAL REPORT                                Page 14 of 62
An analysis of ACT’s Direct Loan Federal Funds accounts from 1998 through 2000 revealed that
Direct Loan funds drawn from the Department were wired to the Direct Loan Federal Funds
account. However, these funds were transferred from the Direct Loan Federal Funds account to
a non-interest-bearing operating account the following day. IEC staff would then inform the
applicable ACT campuses that the funds had arrived and direct them to disburse the funds to the
appropriate student accounts.

Title IV funds are to be maintained in a Federal Funds account until disbursed for their intended
purpose. The funds are to be held in trust for the intended student beneficiary and cannot be
used for any other purpose. An institution has not used Title IV funds for their intended purpose
until it has disbursed the funds to the intended student beneficiaries. IEC’s practice of
transferring Title IV funds into its operating account within one day of receipt without disbursing
the funds to students breached its fiduciary responsibility to the Secretary.

IEC could not account for all of the funds that it drew down from the Department. We compared
the total amount of Title IV funds drawn down from the Department’s GAPS system to the total
amount of Title IV funds posted to student accounts per ACT’s CLASS system for school FY’s
1999, 2000, and 2001. The tables below illustrate that the Title IV drawdowns (less refunds)
exceeded the amounts posted to student accounts by $994,619 for FY’s 1999 through 2001.

   Table 2.1 - Direct Loan Drawdowns vs. Amounts Posted to Student Accounts
     Fiscal Year         GAPS          CLASS          Difference
         1999            $4,674,687      $4,493,067       $181,620
         2000             5,201,173       4,536,704         664,469
         2001             6,812,068       6,879,979        (67,911)
    TOTALS              $16,687,928    $15,909,750        $778,178

   Table 2.2 - Pell Grant Drawdowns vs. Amounts Posted to Student Accounts
     Fiscal Year          GAPS          CLASS         Difference
         1999            $1,563,993      $1,531,801        $ 32,192
         2000             2,075,046       1,930,274          144,772
         2001             2,808,319       2,859,397         (51,078)
    TOTALS               $6,447,358      $6,321,472        $125,886

   Table 2.3 – FSEOG Drawdowns vs. Amounts Posted to Student Accounts
     Fiscal Year      GAPS          CLASS           Difference
         1999           $ 31,748       $ 9,945           $21,803
       2000                    75,128            108,954            (33,826)
       2001                   133,922             31,344             102,578
    TOTALS                   $240,798           $150,243             $90,555

On October 31, 2001, ACT/IEC returned $900,000 in Direct Loan funds to the Department.
ACT/IEC also returned $265,000 in Pell grant funds to the Department on November 14, 2001.
According to IEC officials, the returned funds represented excess cash accumulated during FY’s
1999 and 2000.

ED-OIG/A04-B0019                    FINAL REPORT                               Page 15 of 62
ACT did not disburse Title IV funds to students within three business days following the date the
institution received the funds. We reviewed a random sample of 74 files of students who
received Title IV funds during academic years 1999-2000 or 2000-2001 (July 1, 1999, through
June 30, 2001). ACT failed to post Title IV funds to student accounts within allowable time
periods for about two-thirds of the files reviewed.

Of the 74 files reviewed, 52 student accounts were not credited with Title IV funds within three
business days of the date that the funds were drawn per the support provided for the drawdowns.
We identified 176 disbursements that were not posted to the 52 student accounts within three
business days (per ACT’s accounting system post date). ACT officials were unable to provide
names of alternative students who received the funds. Table 2.4 below illustrates the number of
lapsed days for the 52 student accounts reviewed (176 disbursements).

   Table 2.4 – Disbursement Elapsed Days for the 52 Students
   Whose Accounts Were Not Credited Within Three
   Business Days of Drawdown of Funds
        Elapsed Days            Disbursements
        4-5                                 51
        6-10                                46
        11-50                               55
        51-100                                9
        101-300                               4
        301-500                               8
        501-650                               3
        Total                              176

ACT had no written policies and procedures over the draw down and disbursement of Title IV
funds. ACT also experienced a high turnover in financial aid personnel and the current
employees could not explain the process used for drawing down and disbursing Title IV funds
during award years 1998 or 1999. In April 2000, ACT signed a contract with Global Financial
Aid Services (Global) to perform certain aspects of the draw down and disbursement of Title IV
funds as a third-party servicer.

During the audit exit conference, ACT/IEC officials agreed that there were two issues in this
finding that needed to be addressed: (1) Title IV funds not kept in an interest bearing account
until disbursed to student accounts and (2) Title IV funds not being disbursed to student accounts
within three business days. The IEC Vice President of Student Financial Services said ACT got
into the situation of not posting large amounts of Title IV funds to student accounts within the
required timeframe because of turnover in personnel. In February 2001, ACT began trying to
reconcile the Direct Loan and Pell accounts. The Direct Loan process involved matching
students for which ACT had a valid promissory note to Title IV draw downs made and posted.
The result of the Direct Loan and Pell reviews was the return of $900,000 of Direct Loan funds
and $265,000 of Pell funds to the Department of Education.



ED-OIG/A04-B0019                   FINAL REPORT                             Page 16 of 62
RECOMMENDATIONS
We recommend that the Chief Operating Officer for Federal Student Aid:

2.1 	 Place ACT on the reimbursement method of payment for all the Title IV programs.

2.2 	 Require ACT to maintain Title IV fund drawdowns in an interest-bearing Federal Fund
      account until the funds are disbursed to students.

2.3 	 Require ACT to establish policies, procedures, and management controls to ensure that
      Title IV funds are disbursed to student accounts within three business days following the
      date the funds are received.

2.4 	 Take appropriate action under 34 C.F.R. Part 668, Subpart G to fine, limit, suspend, or
      terminate the participation of ACT in the Title IV programs as a result of ACT’s breach of
      fiduciary responsibility.

ACT RESPONSE

In its written response to the draft report (see Attachment B), ACT agreed that for the period
covered by the audit, it did not consistently disburse Title IV funds to students in accordance
with all applicable Departmental requirements. During award year 2000-2001 to present, ACT
contends that it maintained Title IV funds in bank accounts identified as containing Federal
funds. However, these Federal funds accounts were not interest bearing accounts because ACT
determined that the interest that would be earned on the funds in the accounts would be less than
$250 per year. Regulations do not require institutions to maintain Title IV funds in an interest-
bearing account if the institution will not earn over $250 during the award year.

It was ACT’s practice during the years covered by the audit (school years 1999, 2000, and 2001)
to transfer the Title IV funds it received out of the Federal funds account and into its operating
account approximately one day after their receipt from the Department. ACT did this because a
predominant number of ACT students use all of the Title IV funds awarded to them to pay
institutional charges (i.e., tuition, fees, books, and related charges). It was ACT’s intent that,
immediately upon transfer of the funds to the institutional operating account, it would credit the
funds to the student’s tuition accounts. Unfortunately, during the period covered by the audit,
this did not always happen on a consistent basis, and funds were not consistently credited to
student’s accounts within three business days. ACT conceded that practices like this that were
initiated by the prior management of ACT’s parent company were sometimes too informal and,
therefore, not consistent with applicable Federal regulations.

ACT has made several significant changes to institutional policies and operations to address this
problem. In 2000, ACT engaged the services of Global Financial Aid Services, an experienced
third-party servicer, to handle key aspects of ACT’s drawdown and disbursement of Title IV
funds. ACT has dramatically reduced the time lapse between the date Title IV funds are drawn
down and the date those funds are credited to students’ accounts.


ED-OIG/A04-B0019                    FINAL REPORT 	                          Page 17 of 62
The audit report describes past procedures and a problem that went back as far as five years.
ACT has taken numerous steps to revise it practices, including the retention of a respected third-
party servicer, Global Financial Aid Services, to help administer its Title IV funds appropriately
and to help ensure these past practices will not continue. For those reasons, ACT does not
believe that it should be placed on reimbursement, or that its Title IV participation should be
limited, suspended, or terminated.

OIG COMMENTS

ACT agreed that for the period covered by this audit, it did not consistently disburse Title IV
funds to students in accordance with applicable regulations. ACT’s response that it did not
deposit Title IV funds into an interest bearing account because the amount of interest earned
would be less than $250 annually does not address the primary violation. ACT’s breach of its
fiduciary responsibility is the fact that ACT did not maintain the Title IV funds in the Federal
Funds account until the funds were disbursed to student accounts. The transfer of Title IV funds
to the operating account one day after the funds were drawn down did not necessarily mean the
funds were posted to student accounts.

Furthermore, under the system in place at the time of our audit, ACT’s use of the CLASS system
transaction date data made it appear that ACT was in compliance with the requirement to
disburse Title IV funds to students within three business days when in many instances it did not.
To be in compliance with regulations, it would be necessary for the transaction date to represent
the date that funds were actually posted to student accounts.

The new procedure described by ACT for Pell and Direct Loan disbursements will not resolve
the 90/10 revenue problems noted in this report unless (1) the transaction date and posting date
are the same as the date the funds are credited to student accounts and (2) the funds are disbursed
to students within three business days from the date of drawdown. We did not change our
findings and recommendations regarding ACT’s breach of its fiduciary responsibilities.

Finding No. 3 – ACT Improperly Disbursed Title IV Funds to Ineligible
Students
ACT improperly disbursed Title IV funds totaling $67,744 to (1) seven students more than
90 days after their last date of attendance, (2) three students who had withdrawn from school,
and (3) four students who did not pass the ability-to-benefit test.

The regulations at 34 C.F.R. § 668.164(g)(2)(ii)(A) and (3) provide that:

     An institution may not make a late or subsequent disbursement of a Direct
     Subsidized or Direct Unsubsidized loan unless the student has graduated or
     successfully completed the period for which the loan was intended . . . .

     If a student or parent borrower qualifies for a late disbursement . . . the
     institution . . . [m]ay make that late disbursement of [T]itle IV, HEA
     program funds only if the funds are used to pay for educational costs that the

ED-OIG/A04-B0019                    FINAL REPORT                             Page 18 of 62
      institution determines the student incurred in the period in which the student
      was enrolled and eligible; and . . . [m]ust make the late disbursement no
      later than 90 days after the date that student becomes ineligible . . . .

The regulations at 34 C.F.R. § 668.24(c)(1)(iii) require “[t]he records that an institution must
maintain . . . include but are not limited to--Documentation of each student’s . . . eligibility for
[T]itle IV, HEA program funds . . . .”

The regulations at 34 C.F.R. § 668.32(e)(2) state that “[a] student is eligible to receive [T]itle IV,
HEA program assistance if the student – [h]as obtained within 12 months before the date the
student initially receives [T]itle IV, HEA program assistance, a passing score specified by the
Secretary on an independently administered test . . . .”

ACT improperly disbursed Title IV funds totaling $25,587 to eight students more than 90 days
after their last date of attendance. ACT returned to the Department $2,141 disbursed to one of
these students, leaving a balance owed of $23,446. ACT also made second Direct Loan
disbursements totaling $4,688 to three students after their last date of attendance even though the
students withdrew before the end of the payment period.

ACT did not always maintain documentation of the Wonderlic Ability-to- Benefit (ATB) test
scores in student files. A comparison of the Department’s National Student Loan Data System
(NSLDS) and Wonderlic’s ATB database identified 11 students who received student financial
aid, but did not pass the Wonderlic ATB test. A review of these 11 student files revealed that
four files did not contain adequate documentation to establish eligibility to receive Title IV
funds. As a result, $39,610 was disbursed to four ineligible students.

ACT officials stated that the institution had a high turnover in staff. We concluded that this
contributed to ACT’s difficulty in processing financial transactions accurately, timely, and in
accordance with regulations. We also noted that there was confusion among financial aid
personnel regarding whose responsibility it was to post Title IV funds to student accounts once
the campus was notified that the funds had arrived.

RECOMMENDATIONS
We recommend that the Chief Operating Officer of Federal Student Aid require ACT to:

3.1 	 Return $67,744 of Title IV funds that were improperly disbursed.4

3.2 	 Address confusion among financial aid personnel regarding their responsibilities to ensure
      that ineligible students do not receive Title IV disbursements.




4
  It should be noted that $3,852 of the $67,744 was disbursed during school FY 2000. Therefore, if it is determined
that ACT must return the $7.4 million in Title IV funds that it received during school FY 2000 as a result of Finding
No. 1, the $3,852 should be deducted from the $67,744 (i.e., the $3,852 is included in the $7.4 million).
ED-OIG/A04-B0019                          FINAL REPORT 	                                   Page 19 of 62
ACT RESPONSE

The ACT written response (see Attachment B) provided additional information for each of the
students identified in the draft report as receiving improper Title IV disbursements. The
response also stated that ACT had implemented various new procedures and had provided
additional training to its staff to ensure that Title IV funds are not disbursed to ineligible
students. ACT is discontinuing use of ability-to-benefit testing for admitting new students.
Effective June 1, 2003, new applicants to ACT will only be admitted if they have a high school
diploma or GED certificate.

OIG COMMENTS

Based on the additional information provided by ACT in its response to the draft report, we
adjusted the finding to include eight students (down from nine) who received Title IV funds
more than 90 days after their last date of attendance; three students (up from two) who received
Title IV funds after their last date of attendance even though the students withdrew before the
end of the payment period; and four students (down from five) who did not have passing ATB
test scores. The one student file that was missing was provided for review. Based on the
additional information provided, we reduced the total amount of improperly disbursed Title IV
funds to $67,744 (from $82,832).

Finding No. 4 – ACT Did Not Reconcile Direct Loan Funds
ACT did not reconcile its 1998-1999 or 1999-2000 Direct Loan awards on a monthly basis.
ACT/IEC officials stated that these awards were not reconciled due to high staff turnover and
improperly trained personnel. Because the school’s records do not match the Department’s
records, the Department cannot account for the Direct Loan funds or identify potential problems
with timely disbursements or excess cash.

The regulations at 34 C.F.R. § 685.102(b)(3) for an origination option 2 school such as ACT
states that the school “reconciles on a monthly basis.” Direct Loan Bulletin-97-49 provides that
“Each academic year will be closed on July 31st of the year following the academic year.”

The regulations at 34 C.F.R. § 685.402(c)(2) state:

     The Secretary may require a school to change origination status if the
     Secretary determines that such a change is necessary to ensure program
     integrity or if the school fails to meet the criteria and performance standards
     established by the Secretary, including but not limited to . . . the timely
     submission of completed and signed promissory notes and accurate
     origination and disbursement records, and the successful completion of
     reconciliation on a monthly basis.

We reviewed a judgment sample of six months each of Direct Loan Student Account Summary
(DLSAS) reports for the 1998-1999 and 1999-2000 award years to determine whether ACT
reconciled its Direct Loan awards on a monthly basis. The DLSAS reports showed that ACT

ED-OIG/A04-B0019                    FINAL REPORT                             Page 20 of 62
carried an ending cash balance at the end of 10 of the 12 months reviewed. ACT also carried an
ending cash balance and unbooked loans after the close of the 1998-1999 and 1999-2000
academic years.

ACT’s failure to reconcile its Direct Loan awards on a monthly basis contributed to the
unaccounted for Direct Loan funds that were not returned to the Department in a timely manner.
We reviewed ACT’s bank statements, GAPS activity reports, and student ledgers for a judgment
sample of three months each for award years 1998-1999, 1999-2000, and 2000-2001 to
determine whether funds drawn down from GAPS were disbursed to student accounts. We noted
a significant difference between the amount of funds drawn from GAPS and the amount of funds
disbursed to student accounts in seven of the nine months reviewed. These funds represented
unaccounted for loan funds in the ACT operating account.

IEC officials were attempting to reconcile these awards at the time of the audit. On October 31,
2001, IEC returned to the Department $900,000 of unaccounted for funds from Direct Loan
award years 1998-1999 and 1999-2000. According to IEC officials, $150,000 was from award
year 1998-1999 and $750,000 was from award year 1999-2000.5

IEC signed a contract with Global Financial Aid Services (Global) in April 2000 for Global to
perform ACT's 2000-2001 Direct Loan reconciliation. Global began handling the reconciliation
of ACT's 2000-2001 Direct Loans for the month ended September 30, 2000. A limited review of
Global revealed that it had policies and procedures in place for reconciling ACT's 2000-2001
Direct Loans on a monthly basis. Our analysis of a three-month sample of DLSAS reports
revealed that Global was following its procedures and reconciling ACT's 2000-2001 Direct
Loans on a monthly basis.

RECOMMENDATION
We recommend that the Chief Operating Officer for Federal Student Aid require ACT to:

4.1 	 Train personnel in the reconciliation requirements of the Direct Loan program.

4.2 	 Monitor its third-party servicer’s performance to ensure continued compliance with
      program requirements.

ACT RESPONSE

ACT agreed that it did not reconcile its Direct Loan accounts on a monthly basis during 1988-
1999 and 1999-2000. However, subsequent to that time ACT initiated a reconciliation of its

5
 An additional $47,237 of excess cash was due for the 1998-1999 Direct Loan award. Subsequent to the
completion of our audit work, the Division Director of Case Management and Oversight issued a Final Program
Review Determination on January 4, 2002, requiring ACT to return $52,267, which included an additional excess
cash balance of $47,237 for the 1998-1999 Direct Loan award year plus accrued interest of $5,030. The school
appealed this determination, and the Department subsequently agreed to allow the $47,237 of excess cash be paid by
offset against money due back to the institution from the Direct Loan program for the 1997-1998 award year. A
check was paid for the $5,030 of accrued interest.
ED-OIG/A04-B0019                         FINAL REPORT 	                                 Page 21 of 62
Direct Loan funds. As a result of that reconciliation, ACT returned excess cash funds to the
Department, as acknowledged in the audit report. In April 2000, ACT engaged Global Financial
Aid Services to perform a variety of Title IV cash management functions. One of the services
Global performs on behalf of ACT is the reconciliation of Direct Loan transactions. Global
began conducting complete monthly reconciliation of Direct Loans at the beginning of the 2000-
2001 school year. ACT personnel are now fully aware of the monthly reconciliation
requirements and the Global staff performing the reconciliation is fully trained, experienced,
and capable to perform those duties.

OIG COMMENTS

ACT agreed that it did not always reconcile Direct Loan funds in accordance with Departmental
requirements. Although ACT engaged Global Financial Aid Services to perform their
reconciliation of Direct Loan funds, ACT remains the responsible party regarding compliance
with Direct Loan program requirements. Our limited review of Global revealed that it had
policies and procedures in place for reconciling Direct Loans on a monthly basis; however, we
did not make a determination as to whether the reconciliation was timely and accurate. We did
not change our findings and recommendations regarding Direct Loan reconciliation.

Finding No. 5 – ACT Failed to Properly Calculate or Make Refunds For
Students Who Withdrew
ACT failed to make refunds for ten students and incorrectly calculated refunds for two students
in our sample who withdrew during academic years 1999-2000 and 2000-2001. As a result,
ACT owes the Department $9,619 for refunds not made or made in the incorrect amount.

Institutions are required to calculate returns of Title IV funds for students who withdraw
according to the procedures in 34 C.F.R. § 668.22 (2000). Amended regulations to implement
the return of Title IV requirements of the Higher Education Amendments of 1998 were published
in the Federal Register on November 1, 1999. Institutions were not required to implement these
new requirements until October 7, 2000, although institutions could choose to implement them
earlier. ACT did not choose early implementation. We used the appropriate refund calculation
depending on when the refund was made.

ACT did not always calculate refunds correctly or make the refunds. A review of the files of 23
randomly selected students who withdrew from ACT’s Atlanta campus during the 2000-2001
school year revealed that two refunds were not made at all and one refund made was calculated
incorrectly.

We also reviewed refunds as part of our student eligibility file review. Of the 74 files reviewed
of students who received Title IV funds during academic years 1999-2000 and 2000-2001, 28
students withdrew and required a refund calculation. Of these 28 students, eight refunds were
not made and one was made, but calculated incorrectly.

Of the 51 (23 + 28) student files reviewed that required refund calculations, ACT failed to make
refunds for ten students and two refunds were made, but calculated incorrectly. As a result of its

ED-OIG/A04-B0019                    FINAL REPORT                             Page 22 of 62
failure to correctly calculate and/or make refunds for these12 students, ACT owes the
Department $9,619.

ACT has a history of refund problems. ACT’s FY 1999 and FY 2000 compliance audits
contained findings pertaining to untimely refunds and the failure to make refunds.6 To resolve
the FY 1999 refund finding, the Office of Federal Student Aid required ACT to conduct a full
file review to identify all late refunds. This file review indicated that of 152 refunds, 58 were
paid late (38 percent), and of the $239,516 of refunds paid, $104,152 were paid late (44 percent).
The Office of Federal Student Aid also required ACT to conduct a full file review to resolve the
FY 2000 refund findings. The compliance audit identified refunds totaling $24,278 that had not
been paid and $11,114 in refunds that were paid late. The full review identified refunds totaling
$112,884 that had not been paid for the FY 2000 award year. The Department requested and
received a letter of credit for $3.5 million from IEC relating to ACT’s refund issues.

During the audit exit conference, IEC’s Vice President of Student Financial Services stated that
ACT has historically had a problem with refunds. The officials said a new system to calculate
refunds was implemented in July 2001 to resolve this problem. We did not review this system.

RECOMMENDATIONS
We recommend that the Chief Operating Officer for Federal Student Aid:

5.1 	 Require ACT to refund to the Department $9,619 (less $3,255 paid subsequent to the
      issuance of the draft audit report) for refunds not made or made in the incorrect amount.

5.2 	 Require ACT to implement policies, procedures, and management controls to ensure the
      accurate calculation of refunds and the timely return of such refunds to the Department.

5.3 	 Take appropriate action under 34 C.F.R. Part 668, Subpart G to fine, limit, suspend, or
      terminate the participation of ACT in the Title IV programs as a result of ACT’s continued
      failure to make refunds.

ACT RESPONSE

ACT provided additional information for each of the students cited in this finding. As a result of
its recalculations for these students, ACT believes that the correct amount of additional refunds
due is $3,255 for four students, which ACT fully paid prior to submitting its written response to
the report. The ACT response also stated that the audit report notes that ACT had late and
unmade refunds in the past, facts that ACT readily admit. ACT performed extensive file reviews
over a period of several years, under the direction of the Department’s Case Management [and
Oversight] Team, to identify additional refunds that were not paid correctly and timely. ACT
paid all additional refund amounts identified by those file reviews, and the Case Management
Team closed the compliance reviews for those years.


6
 The Office of Federal Student Aid also requested ACT to conduct a full file review for its fiscal year ending
October 31, 2001, and for the period November 1, 2001, through December 31, 2001.
ED-OIG/A04-B0019                          FINAL REPORT 	                                   Page 23 of 62
ACT’s independent auditor’s Title IV compliance attestation report for school FY 2000
identified only one late refund and no unmade refunds in its audit sample. Therefore, ACT
believes that the refund problem is a problem of the past that has been cured. ACT developed
and now has in place detailed policies and procedures for ensuring refunds are correctly and
timely made. ACT believes that no additional adverse action against it is warranted, and
requested that the recommendation to limit, suspend, or terminate ACT’s participation in
Title IV programs due to its failure to make refunds be removed from the final report.

OIG COMMENTS

Based on the additional information provided by ACT in its response to the draft report, we
adjusted the finding to show that ACT failed to make refunds for ten students (down from
eleven) totaling $9,042 and incorrectly calculated and made refunds for two students totaling
$577. We also reduced the total amount of refunds due to $9,619 (from $10,112). We noted that
ACT returned some of the recommended recoveries subsequent to issuing the draft audit report;
therefore, we amended the amount to be recovered in Recommendation 5.1. Given ACT’s
history of refund problems, we did not change Recommendation 5.3.

Finding No. 6– ACT Did Not Demonstrate Administrative Capability
As discussed in Findings 1 through 5 above, ACT had significant problems affecting its ability to
administer the Title IV programs. There was a high turnover of financial aid staff and a lack of
management controls over program operations. As a result, ACT did not meet the administrative
capability standards required to participate in the Title IV programs.

In order to continue participation in the Title IV programs, an institution must demonstrate that
it:
      is capable of adequately administering that program under each of the
      standards established in this section. The Secretary considers an institution
      to have that administrative capability if the institution--Administers the
      Title IV, HEA programs in accordance with all statutory provisions of or
      applicable to Title IV of the HEA, all applicable regulatory provisions
      prescribed under that statutory authority, and all applicable special
      arrangements, agreements, and limitations entered into under the authority
      of statutes applicable to Title IV of HEA. [34 C.F.R. § 668.16]

Among the factors in 34 C.F.R. § 668.16 that should be considered in evaluating administrative
capability are whether the institution:

     (a) Administers the Title IV, HEA program in accordance with all statutory 

     provisions of or applicable to Title IV of the HEA, [and] all applicable 

     regulatory provisions prescribed under that statutory authority . . . 

     (c) Administers the Title IV, HEA programs with adequate checks and 

     balances in its system of internal control . . . 

     (d) Establishes and maintains all required records . . .


ED-OIG/A04-B0019                    FINAL REPORT                             Page 24 of 62
     (j) Shows no evidence of significant problems that affect the institution’s 

     ability to administer the Title IV programs that are identified by oversight

     agencies . . .

     (n) Does not otherwise appear to lack the ability to administer the Title IV

     programs competently . . . . 


ACT did not administer the Title IV programs in accordance with all statutory and regulatory
requirements when it failed the 90/10 revenue requirement; breached its fiduciary responsibility
to the Secretary by using Title IV funds for other than their intended purpose; improperly
disbursed Title IV funds to ineligible students; failed to reconcile its Direct Loan accounts with
the Department; failed to make all required refunds; and failed to calculate refunds correctly.
We attributed these problems to a lack of adequate accounting and management controls and a
high turnover of financial aid staff. As a result, ACT did not meet the administrative capability
standards required to participate in the Title IV programs.

RECOMMENDATION
We recommend that the Chief Operating Officer of Federal Student Aid:

6.1 	 Take appropriate action under 34 C.F.R. Part 668, Subpart G to fine, limit, suspend, or
      terminate the participation of ACT in the Title IV programs as a result of ACT’s lack of
      administrative capability.

ACT RESPONSE

ACT stated that while it acknowledges that it had certain administrative and cash management
problems in the past, it has also tried to demonstrate that it has devoted extensive attention and
resources to correcting these problems. The problems identified in the audit report have been
addressed and have been either completely or largely corrected. ACT addressed its past high
turnover rate for financial aid staff by bringing in Global Financial Aid Services to perform
many of the financial aid functions and by increasing training of its own financial aid employees.
ACT’s annual compliance audits show a distinct improvement in the magnitude and type of
findings identified. ACT’s most recent audits show marked improvement and a greatly reduced
error rate, further attesting to its current administrative capability. Based on the corrective
actions taken to address the issues identified in the report, and its current capabilities and
processes, ACT does not believe that it should be limited, suspended, or terminated from future
participation in the Title IV programs.

OIG COMMENTS

ACT agreed that during the period covered by this audit it did not always administer the Title IV
programs in accordance with Departmental requirements regarding the drawdown and
disbursement of Title IV funds to students; disburse Title IV funds to eligible students; reconcile
Direct Loan funds on a monthly basis; and make refunds to students who withdrew. Therefore,
ACT did not demonstrate administrative capability to administer the Title IV programs. We did
not change our findings and recommendations regarding administrative capability. ACT stated

ED-OIG/A04-B0019                    FINAL REPORT 	                           Page 25 of 62
that it plans to continue using the CLASS system transaction date data to compute 90/10
revenue. Since the transaction date data entered by ACT during the period of this audit was not
reliable to determine when Title IV funds were disbursed to student accounts, the continued use
of transaction date data in the same manner will not resolve the problem of inaccurate 90/10
revenue calculations. The 90/10 revenue computation will only be corrected if ACT changes its
methodology for entering transaction date data whereby the date that Title IV funds are credited
to student accounts is the same date as the posting date data.


                                   OTHER MATTERS


To meet the 90/10 Rule requirement, it was IEC policy to maximize non-Title IV revenues near
the end of the fiscal year. ACT did this, in part, by delaying the draw down of Title IV funds
during the last months of the fiscal year until the next fiscal year, and by encouraging students to
obtain Sallie Mae recourse loans during the last month of the fiscal year. In October 1999, 2000,
and 2001, 84 students obtained Sallie Mae recourse loans for the full cost of tuition and fees
(ranging from $9,995 to $11,895). Sallie Mae recourse loans for these amounts were rarely
made during other months of the fiscal year.

We reviewed the files of 61 of the 84 students that obtained large Sallie Mae recourse loans. We
found that 15 of the 61 students were eligible for Direct Loans, but ACT encouraged them to
obtain a Sallie Mae recourse loan instead. Forty of the 61 students had a Direct Loan at the time
they obtained the Sallie Mae loan. The Direct Loans for 29 of these 40 students were cancelled
or repaid by ACT when the students obtained the Sallie Mae loans. The remaining 11 students
kept both the Direct Loan and the Sallie Mae loan. The Direct Loans had an interest rate of
8.25 percent while the Sallie Mae loans had interest rates ranging from 14.63 to 15.94 percent.
In addition to the lower interest rate, there were other benefits to Direct Loan such as deferment
options and grace periods.

We also noted that ACT cancelled and returned 9 of the Sallie Mae loans during the first month
of the next fiscal year (November 1999 and 2000, respectively). We also found that ACT
repurchased 35 of the loans within the following two years because students defaulted on them.
The IEC/ACT policy suggests that students were encouraged to obtain the large Sallie Mae loans
to help ACT meet the 90/10 Rule.




ED-OIG/A04-B0019                    FINAL REPORT                              Page 26 of 62
                                      BACKGROUND


Advanced Career Training Institute (ACT), founded in 1975, is a two-year proprietary institution
with campuses in Atlanta and Riverdale, GA, and Jacksonville, FL. ACT offers vocational
training in the following areas: Networking Technology, Dental Assistant, Medical Assistant,
and Business Office Administration. ACT was accredited by the Accrediting Council for
Continuing Education & Training and offered a degree in each vocational training program.
ACT is owned by International Education Corporation, Inc. (IEC), located in Irvine, CA.

During school FY’s 1999 through 2001, ACT participated in the William D. Ford Direct Loan
Program, the Federal Pell Grant Program, the Federal Supplemental Educational Opportunity
Grant Program (FSEOG), and the Federal Work Study (FWS) Program. According to GAPS,
ACT drew down $23.5 million from the William D. Ford Direct Loan, Pell Grant, FSEOG, and
Federal Work Study programs during FY’s 1999, 2000, and 2001.


             OBJECTIVES, SCOPE, AND METHODOLOGY


Our audit objective was to determine whether ACT administered the student financial assistance
programs in accordance with Title IV of the Higher Education Act of 1965, as amended, and
applicable regulations. Specifically, we reviewed ACT’s compliance with the requirements for
(1) institutional eligibility, including the 90/10 Rule, accreditation, and State licensing, (2) cash
management, (3) Direct Loan reconciliation, (4) refunds and the return of Title IV funds,
(5) student eligibility, (6) program length, and (7) commissioned sales. Audit coverage included
award years 1998-1999, 1999-2000, and 2000-2001. For purposes of the 90/10 revenue
calculation and cash management review, audit coverage included school FY’s 1999 through
2001. For program length, audit coverage included school FY 2001.

We accomplished these objectives by reviewing the HEA, regulations, and policies applicable to
the Title IV programs. We interviewed officials representing ACT's Atlanta, Riverdale, and
Jacksonville campuses; ACT’s parent corporation, IEC; and ACT’s Title IV third-party servicer,
Global Financial Aid Services. We also interviewed U.S. Department of Education officials
representing Federal Student Aid’s Case Management Office, Direct Loan Office, and the Loan
Origination Center. We reviewed ACT’s written policies and procedures for managing its
Title IV programs. We also reviewed ACT’s compliance audits for the periods ending
October 31, 1998, 1999, and 2000, and its financial statement audits for the periods ending
October 31, 1999 and 2000. In addition, we reviewed the compliance attestation audits of ACT’s
third-party servicer, Global Financial Aid Services, for the periods ending December 31, 1998,
1999, and 2000.

We performed a student eligibility file review in which we reviewed the files of a randomly
selected sample of 93 students (from a universe of 3,127) who were enrolled at ACT schools

ED-OIG/A04-B0019                     FINAL REPORT                              Page 27 of 62
between July 1, 1999, and June 30, 2001, and received Title IV funds per ACT’s CLASS
accounting system or the Department’s National Student Loan Data System (NSLDS). Of these
93 selected students, the school could not locate 4 of the files. Our review of the student ledgers
and NSLDS indicated that 3 of these 4 students did not receive student financial aid, nor did 15
of the remaining 89 student files. As a result, we examined 74 files of students who received
Title IV funds from ACT during the audit period.

We accomplished the objectives pertaining to the 90/10 Rule by reviewing the 90/10 calculations
for FY’s 1999, 2000, and 2001. We recalculated the Title IV revenue for these years using
ACT’s CLASS system posting date data and adjusting for credit balances and cash paid to
students. We calculated non-Title IV revenue using the CLASS accounting system posting date
data. Due to the incompleteness of the CLASS system (student accounts not posted timely or not
at all), we also calculated the 90/10 revenue percentages using the Department’s GAPS data.

We accomplished the cash management objective by reviewing the Title IV drawdowns for the
Direct Loan, Pell, and FSEOG programs for FY’s 1999, 2000, and 2001 and compared these
amounts to the amounts posted in ACT’s CLASS system. We also traced Direct Loans received
by ACT from draw down to posting by reviewing ACT’s bank statements, GAPS activity
reports, and student ledgers for a judgment sample of the last three months of FY’s 1998, 1999,
and 2000. Cash management objectives were also reviewed as part of the student eligibility file
review and the Direct Loan reconciliation review.

We accomplished the Direct Loan reconciliation objective by reviewing the Direct Loan Student
Account Statements (DLSAS) and DLSAS Reconciliation Summary Reports for a judgment
sample of the last three months of the 1998-1999 and 1999-2000 Direct Loan awards, and a
judgment sample of the last six months for the 2000-2001 Direct Loan award.

To meet the audit objectives pertaining to refunds, we performed a detailed test of a 10 percent
random sample (23 of 230 files) of student withdrawals for ACT’s 2000-2001 school year to
verify refunds and return of Title IV funds. We also reviewed the accuracy and timeliness of
refunds as part of our student eligibility file review. We also reviewed the files of the 28
students who withdrew (of the 74 student files showing that the students received Title IV
financial assistance).

We reviewed accreditation reports, program participation agreements, State licenses, personnel
employment contracts, employee compensation plans, employee payroll ledgers, Wonderlic
Ability-to-Benefit score reports, and externship contracts. We reviewed a random sample of 26
students who completed an externship during FY 2001 and analyzed the files to determine
whether ACT complied with its externship policies and procedures. We also determined whether
ACT complied with the requirements of the Accrediting Council for Continuing Education and
Training and State Licensing Boards for the externship program.

To achieve the audit objectives, we relied in part on computer-processed data contained in
ACT’s CLASS accounting system and the Department’s Grant Administration Payment System
(GAPS) and NSLDS. The CLASS accounting system contained two date fields to indicate the
date that students received Title IV and non-Title IV funds. We determined that the "transaction

ED-OIG/A04-B0019                    FINAL REPORT                             Page 28 of 62
date" data found in the CLASS system was not verifiable. Since the “posting date” data was
automatically generated by the computer system and contained the date that disbursements were
actually posted to student accounts, we relied upon the "posting date" data in CLASS for our
analyses. We performed limited testing of the CLASS data to assure ourselves that the data were
reliable for the purposes of the audit objectives. While conducting the student file review, we
compared source information found within the student files to the information recorded in
CLASS and NSLDS. While evaluating ACT’s cash management procedures and 90/10
calculations, we examined the dates and amounts of Title IV funds received per GAPS to the
dates the funds were posted to student accounts per CLASS. We also performed limited testing
of data while recalculating the 90/10 revenue percentages by comparing the information used to
calculate the 90/10 percentages to the information in the Department’s GAPS and source
documentation to support the calculation that was provided by ACT. Based on the results of our
tests we concluded that, except for the transaction date data, the CLASS accounting system data
were sufficiently reliable to meet our audit objectives.

Audit work was performed during the period July 2001 through September 2002. We held an
exit conference with school officials on December 16, 2002.

The audit was conducted in accordance with generally accepted government auditing standards
appropriate to the scope of review described above.


            STATEMENT ON MANAGEMENT CONTROLS 


As part of the audit, we assessed the system of management controls, policies, procedures, and
practices applicable to ACT’s administration of the Title IV programs. Our assessment was
performed to determine the level of control risk for determining the nature, extent, and timing of
substantive tests to accomplish the audit objectives. For the purposes of this report, we assessed
and classified significant controls into the following categories: Institutional eligibility (90/10
revenue percentage, accreditation, and licensing); cash management; student eligibility, Direct
Loan reconciliation; and refunds/returns of Title IV funds.

Due to inherent limitations, an evaluation made for the limited purposes described above would
not necessarily disclose all material weaknesses in the management controls. We identified no
deficiencies with the externship program, or accreditation and licensing. However, our overall
assessment disclosed management control weaknesses in each of the other control areas
mentioned above. These weaknesses are discussed in the AUDIT RESULTS section of this
report.




ED-OIG/A04-B0019                    FINAL REPORT                             Page 29 of 62
ATTACHMENT A – OIG 90/10 CALCULATION FOR FY 1999

                              OIG 90/10 CALCULATION FOR FY 1999
                             (November 1, 1998, through October 31, 1999)


                                              OIG FIGURES               OIG FIGURES              ACT FIGURES 5/
                                               (GAPS Data)             (Post Date Data)        (Transaction Date Data)
Title IV Receipts
FSEOG 1/                                              $31,748.00                $10,065.00
FSEOG Refunds per CLASS Post Date                       (120.00)                  (120.00)
Total FSEOG                                           $31,628.00                 $9,945.00                      $11,370.00

PELL 1/                                            $1,563,993.00            $1,579,149.00
PELL Refunds per CLASS Post Date                     (47,348.00)              (47,348.00)
PELL Credit Balance Adjustments 2/                     (2,202.00)               (2,202.00)
Total PELL                                         $1,514,443.00            $1,529,599.00                    $1,517,063.00

DIRECT LOAN 1/                                     $4,674,687.00            $4,631,259.01
Direct Loan Refunds per Post Date                   (138,192.50)             (138,192.50)
Direct Loan Credit Balance Adj. 2/                     (2,904.00)               (2,904.00)
TOTAL DIRECT LOAN                                  $4,533,590.50            $4,490,162.51                    $4,298,150.00

Title IV Cash Adjustments                             ($4,502.00)              ($4,502.00)

TOTAL Title IV Receipts                            $6,075,159.50            $6,025,204.51                    $5,826,583.00

Non-Title IV Receipts 4/
Sale of Retail Installment Contracts                $ 112,670.06              $ 112,670.06                    $ 158,744.06
Rehab                                                  11,045.00                  11,045.00                      11,045.00
Cash                                                  145,006.16                145,006.16                      103,239.00
Cash Credit Balance Adjustments 3/                     (1,159.00)                (1,159.00)
Non-Title IV Cash Adjustments                          (4,000.78)                (4,000.78)
Sallie Mae Recourse Loans                             538,661.90                538,661.90                     785,346.00
Sallie Mae Escrow Adjustment                         (41,259.00)               (41,259.00)                     (41,259.00)
Sallie Mae Credit Balance Adj. 2/                  ($211,521.00)             ($211,521.00)

TOTAL Non-Title IV Receipts                          $549,443.34              $549,443.34                    $1,017,115.06



90/10 Percentage Calculation 6/                              91.7                      91.6                            85.1



NOTES:
1/ GAPS data is net of funds returned by ACT. 

2/ The 90/10 calculations can only include funds used to pay for tuition, fees, and other institutional charges. Credit 

balances were subtracted from the Title IV and non-Title IV figures used for the calculation.

3/ Credit balances paid to students for which ACT did not adjust in its 90/10 calculation.

4/ Data obtained from ACT’s CLASS system (posting date data). 

5/ Based on the information provided for the financial statement audit. 

6/ ACT originally computed 86.2 percent; however, in its written response to the draft audit report, ACT amended

non-Title IV revenue figures for Sale of Retail Installment Contracts and the Sallie Mae Escrow Adjustment. 




ED-OIG/A04-B0019                           FINAL REPORT                                       Page 30 of 62
ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



                                   Dow, Lorn·as &                                      ALBERTSOX,                           >LLC
                                                               ATHJRtHY>                AT     LAW

                                                                 WA'HINGTON. /l.r,                                                  """ . ,,""', OJJY' "',... l~~l
    J0O<,THOH C. GLASS
    ~,."r ~:"    ""i'("""          " ' " ~."w w''''''''''OF A,"",,",-~ , " . ., .. 'U1To 000 . W."HC .....V".~,   ,,0. 1.00" ..."   "".,r" 0<0"''' 1m"·"'"
       ;,L'''" ;,,, .•. ,,~                                                                                                         ' H '''~U"' -'O·"J.""
                                               Hl""O"" 201·1'<·2000, .. "",, .. ,                   ~m·'''·llll
                                                                                                                                    '''''''' l(    ,'o,,,j· ,, :'-'



                                                                     June 21. 2003




        Via Federal Express

        Mr. I. \Vayne I3}1lUm
        R"'l-\ional Inspe-ctor General for Audit
        u.s, Department of Education
        Ollice or Inspector General
        (i1 Forsy1h Streetl8T71
        AtJantll, GeOrgill 303D3

                   Re:        Advanced Career Tr~ining
                              i\CN: El)·OIGiA04·ROQl9

        De~r    Mr. Bynum:

                On behalf of Advanced Career Training InstitLlte ("ACT" or tIle "School "), we hereby
        respond 10 the Office or [nspecwr General's ("'OIG") Draft Audit Report dated April 18,2003
        ("Draft Report"), concerning ACT''') compliance with the eligibility and administrative
        re quirements applicable t() the f"'tkral ~llldcnt fillancialassistance programs under Title IV of
        Ihe Higher hdueation Act of 1965, as amend~d ("Tille IV Programs") ("HEA"), ALidit Control
        No, ED-OiGiA04-BOOI9, This response is timely filed, in occordance with the extension
        agr~~d to by yuur office. Thank yOll for yuur courtesy in that regard.

                  We ,uhrnitlhat J'inding N(), I of the Draft Report allc0ng ACf's failLire to meet the
        requirements of the "90/l 0 Rul e" for fiseal year 1999 (Novemb er I·October 31) is based on
        an ir",o[]]pkIC and faulty analysis of the data Llnderlying the School's 90110 calculation for
        that YCilr, Therefore, we bdine, a'j ~t:t forth in detail in thc attachcd response, that ACT did
        slltisfy the 90/10 Rule [()r fiscal year 1991), lind thus request that Finding No.1 he removed
        when you issue the Fjn~l Audit Report

               With £espect to the remaining findings, we h:ive pro\'ided additional infonnation and
        responded to each orthe rec.ommc.ndatjon~ in Ine Dral1 Alldit Report.

                AttacheJ is ACT'~ respOJl8C to each of the six findings in the Draft Audit Report,
        together ""ith supporting exhibits. Ple m. ~ nCltc tl\;).t Exhibit 3"B, an entire student file, is being
        sllbmitted in a s epardt~ folder, which is enclosed.




ED-OIG/A04-B0019                                    FINAL REPORT                                                                    Page 31 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT
        Mr..I. Wayne Bynum
        Jtllc21,2U03
        Page 2


               11' we can provide anything ftuiher with respect to any oflhc findings or thc attached
        response, please do not hesitate [0 contact llS.

               Sinc.;r.;ly.




               Jonllthon C. Gla5s

        Enclosures

        cc (w/encl.):   Ralph Acuba




ED-OIG/A04-B0019                      FINAL REPORT                                      Page 32 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


                                ADVANCF.D CAREER TRAI:;.IING                INSTn·UTI~


                                         Respon~e   to OIG I )rnft Audil Report




      Finding No. ]:        ACT Failed to "1eet the 90flO Rille in FY9?

              TIl,' Drilft R<:porl iI~~ert~ lhill the Scho()1 violated the 90/1 Ii Rlile rorils fiscal vear ended
      Octoocr 31, 19'19 based on the OIG's adjustment of scycrai factors in the SdlOOI'S c;lculation,
      kading the ()IG to ,'evise (he calclilation pre"iollsl), l'umplclcd by ACTs independ ent Certified
      Public Accountant to find t.hat the School rece ived 93. I% of its revenll" rrOIl) th" Till" IV
      l'me;ram, '111<' Draft Repoltthcrcforc concludes t!tal tk S"hwi wa~ hx:ligible in the following
      fiscal year and recommends that the Chief Operating Officer for Federal Siudeni Aid rcquire
      ACT lo rctmn "II Title IV funds, "pproximately S7.4 million, rccciv",d ill fisc~l year :WOO, TIlt'
      Dmli R~rort i~ lun<hm<:T1lully Ilaw,-,d in litiling 10 apply clish-b!l~is accounting m1d in its
      treatment of third-party loans l'ccciwd by cCltain students of the School.

                                                LEGAL STANOARDS

                 Tk own R<:purt.rdicLi un lhe July 1. 1998 vulurnc ur the Code uf Fttit:rClI Regulalions
       ('eFR'") in efti:ct during the School'5 1999 fiscal ycar LO ilsses~ ACT's ~ompliance. We have
       incillded the relevalll seclion~ for elise o[ review, whil e updaling the language to refer to a 90
       pcreml (n~th<:r UlilI! 85 percent) threshold, collsistent "ilh the HEA AlIlcllllrm;nb of I 'f9!:: (l'ublie
       J ,aw :-.Jo. 105-244, cnacted Octo"bcr 7, 199R).

               S<:diun l02(b) ()f Lh" HEA pruvi ...kJ lhat a propri..:Lary in~[iLl1li<'l1 of hi[;n<:r ~d",;ati"n i.,
       mtt' tlmt "has allcasi 10 pl'r~cTlt ()fthe schlJ()I'~ n::V~Tllle~ rrmn '>(JlITe"> thaI ur~ nO\ d~ri\J~J rrom
       l"tmds pro\'iJ~J uncleI' [the Title IV Programs] as deterl11ined in a~"orJanc", with r~gulations
       pr~scribed by Ih~ S~<.Td1iJy." (20 USC § 1002(b )(1 )(F)),


                iJnder the Department's regulation at 34 CFR § 600.5(a)(8). a proprietary
       in,titution loses its cli~ibi1ity if it has more than "90 percent of its rc>venues derived from
       title IV. HJ:::A program funds, a5 determined unlkr paragmph Cd) ofthis section"
       l'aragraph (d) ~I oui th~ funnub as follows:


               (I) An institution sntisfies the requirement contained in r~ragrarh (a}(8) ofthi~
               section by examining its revcnues LlIlder thc following formula:

                        !ilk IV, HEA program funds the institution used to slltisfy tuition, fe es,
                        amillth\~r insril\ltion~l
                                            charges to studentl rNumeratorl-


                        Thc sum ofr~v~nucs generated bytbe institution from' Tuition, fet:'s_ and
                        Olher inslitulional charges ror students enrolled ill ciigible programs as




ED-OIG/A04-B0019                           FINAL REPORT                                             Page 33 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



                           Jdined in 34 CFR 661U\; ano ll<.:tivilie~ conducted by the institution, to the
                           extent nor induded in tuition, fees, and other institutional charges, that are
                           necessary for tile education Clr training of it, students who ~rt: enrolled in
                           those eligible programs I Denominator],


      Seclioo6QO's(dX2) further directs as follows:


                 01 Under the fraction contained in pamgrnph (d)(1) of this seclion-
                           (i) Except a.~ provided in para&mph (h) ofthi., section, th~ title IV, HEA
                           progrmn funds induded in tite numerator and the ~ ..enue included in the
                           d~nominator arc the amoul)t oftitlc IV, HEA program r~mh;,Nw,reVtllUe~
                           received byJhe institution during the institution's last comnlete fiscal year

       ~   6(](),:>;(d)(2) (empimsis added).


                1'1) has al,o required Ihat. an institution's 901 j 0 calculation be performed using cash-basis
       ae<,:uullting. When the 90/1 0 Rule was promulgated in 1<;94 (under tile "~.5/15" formula). the
       Secrdmy stated in tile Federal Register as fi:.lllo"v~:

                 Second. since the institution IllU~t report and account for title IV, HEA program
                 funds 011 a ca~h basis. the institution must also account for revenue in the
                 d~rl\Jmirwtor on a cash ba~i~_ UnJecr a ca,h basis accoulJting, th e institution
                 rq),;lrts revenues on the dateJhat the rev~nues arc actually ~cei'ved.


       59 Fed, Reg, 22324, 1232g (April 29. 1994)         lemplut~io;   <ldded}


              "'Io!'eover. in proposing to revi~ tIle f",gulation in I 999 to ~xpr~.'isjy refer to ca~h b,lsis
       accounting, th~ S~~r~1tu'Y made clear that h., was only making c:<cplicit what had been required
       umler Ihis [Ilk rmm its inception, and went on tu ~),plain the eS:).CIl\ial feature of cash-basis
       accolmting as follow.:

                 In thes ~ proposed regulations, the S~eretary makes explicit in § 600,5(0)(2) thH(
                 an institution must [j,~e tht: cash b~::;i~ "~I ll<XUUllliTlg ill reporting Title IV. I lEA
                 pwgram funds inlhc nUJlleraior and r~v~nur:, g~n e rmed in the denominator of the
                 fraction in § 600..'i(d)(1)

                 ll!~(tq th, eash basi, u(aceounting _n;"mLL~ is 'IOeogniz.ed by an entity .,,~b(;n that
                 entity r,ceive, <.:ash, i,r" when there is an inflow of (;J~h to the cnt.ily_


           64 F~d_ Reg. 38272, 33276 (July 15, j 9(9) i!:l11phaS1S add~d).



                                                             -2-




ED-OIG/A04-B0019                               FINAL REPORT                                        Page 34 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


                                              FACTU A LBACKGROe~n


              In reviewing thi s sectioll, we suggest that you I.'UiUl wt Exhibit I -A, which provides a
      point-b )'-po itlt comparison uflhe calclilation of the S~htlil l ' ~ 90/10 ralio tor fiSC<l1 venT 1999 as
      pt:doIIuetl by th O' 010 in connection v,ith the Driltt Repon ami as pn:pared by t~ School in
      co nnection whh th is rt:spul1~e_ , \lowi ng th~t the Seh" ,,! rCIl(:; ved &5.1 % Hr ;L~ re~Cnt lC " rw m Title
      [V Progr.un fWI\I~ in li s<;.'tl year J'!'J9.

               I.   ACT' 5 indepem kut UlKiilm aU esled to the SChool'3 com p!iiUlce ....i lh tht' 9011 0 Ru le
      in fiscal 1999, illdudi ng!he treatmen t ohhird pBI1y <CCOUI"SC loans in thm calculalio n 1l1C
      auditor anal Yled the 1\110: lIud a ll Dcpanrocmal guidalll;c a v"il..hlc 11110..1 L~md utk'''' IIo" t II,,: School
      ((mcetly ~alculaTed tbal it rct:eivct1lc:s.s !han 90% or ils j1pplicllbk Icn:nuc.s from the Tille IV
      Program". (Copy oflhl; 90/1 0 N,lte at F:xhibit 1-8 ).

               2 . O n J\ll y 1, 1999, Ihe parent corporati on I,l" ACT (l ntcrnatillnal Edu cation
      Cllrpm atioll or " ILC" ) enlo: rcd into ,'-', ilgrccmcnt w ith oll l'lffi li .. tc of S"llic Ma~ ("Sll.lli ~ M ac" )
      and :.1id-City ~u t;()nu l HlUlk ("Sallie M'I~ Agrt;l<;m ~ 'Jt" or "Ag"eem ~nt") \1)1(1",,. whi ch ~ull ie '-Ie\!!
      agreM to m ~h: private ly fumko..l lunm to studoot~ 5!.'(:killg ScICli a~s istancc to atlc:nd AC r find
      who wo uld orh('fwi'IC nnl qua lify for .uch 1011115 due to the ir credit hi stories or o ther ftl4:lOl"S.
      (Copy o f Agr<,em~1t .. t J:::x.hibil I -C). In d isbursing loan~ In th~ students, Sallie Mac ~eJl efill ly
      is.~ued a wire Iransm iual documenl that identified Ihe eX«(;1 loan runount fur each a l1ectcd s tudent
      and the CX1K' t date The loon fumls wt: l e It:tth'ed fo r 11131 Siud em (5Ilc h as the lIaMmiulI l
      document~ at Exhi bit I-D).


               3.    \.IndO:: I S\:etw n 2.2 or the Agreement, TEe agrccd to ~tabli sh ,md maintain an escrow
      <I~cUUJllto be equ~l to ~O% of the origina1l' rincipaJ 1:"1 1 ~ Tl cC of cnch loon made b} Sallie Mile to
      ACT ~tud~nt s ("Escrow ACC DLlllt"). IcC h~d the nptiOI1 (If fundin g (he Est:ww Act.:o unt th r(l ugh
      its own payllle!lls or agreeing that Sallie M~e c(.lU lc.I withhold rund~ ror lbal pur lX' sc fro m new
      loan disbLlr~cmelll" m e fllrtheT agrc<.:d [0 cred it the ~'., Kl c" l borrower "with 100"10 of the 1,("111
      am()U111 fu r P'lymcnt oftuili"n and fees or oth'" C() ~l S of ed u~ ~l;'m" rct1ccting that t~ se wer~
      loans from !-i:lllio;: /lola\: to thO' students for th" b.:n~lit o{ Ill<!: .~tudents. Under ~eclion 3. ( (.,rl),,,
      Agrn;mc:nt. in the even! lhat the d d aults c}(ceedf'rl I h~ a mo unt th ~ ll ava ilab le in th~ Escro w
      l\ ccount, AC)" IlI so agree\! 10 pro vi de additional StilUS to replllt: hasc an y "ueh dl'fnu lleod loans
      Sallie Mllc. ror IH own ""n"~ n iem;~ . actual ly c:stnb lhhcd m ull, p (e ~enunlS to reeei \'~ ullll hult!
      =IUW runrl~. hu t we rcier to those ;JccounL~ here a~ the Esc row Account.


               4.   ThI: l(!l"fT) q o f thc E SlTOW Accoun l  "'' I"C
                                                                illreml"d t o) assure ftmdi ng tl,) pa r r'lI)'
      dd; lul1~ by stlldent5 on Sl111i" Mae loalls. The pllr!le.~ ~gree-d 10 seltht: t:.ICIOW llm oun t fU JO% of
      \h ~ lotal loan pri nci r altu s:ltisfy Sallie Mae, which at that time did not have ex peri ~rn; ~ in
      workin g with mc nr ACT. thatlh<.:y would he abl\l tel pay th~ eosts nfdefaulls uver the li fe of the
      conlmd . I hc: [lC1Celltage of cov erage in thc Escrow AI,;I,;\) unt ha~ vari ed Dyer th e year~, ant! ha~
      ra\l~n b elow 3D% [ro m lime 10 time. but II:C or ACT has always made pllymcnls to Dring the
      cnvr-ragt: b,;,d :: 10 )0%. to Sallic Mae's Sati~t;1ctio n The term~ of the Escrow ACl;(l Unt mwer ha d
      any e ffect 011 Sa ll i!! Ma.:: 's willil1g ~ to mai.::(! IOlll1$ to AC'T ~t udentll. Sallie Mac l".. ~ ,\ever
      .h:1~n:d lEe (If ACT In bro::ach ol" thc Agreement with respecllO the Escrow Acco unt (or ;\11 )"
      o ther leml u f the .--\grccmc[)I). Sallie Ylac h3.~ never declined 10 make loans due 10 lhe lI: nlpor:lry
      tl uC\\llltions in the l,:(I"'c l1lg~ percenl :1 ~': in Ihe Escrow :\(:c:m",t or an)' olbe l reason.



                                                              - .' -




ED-OIG/A04-B0019                              FINAL REPORT                                                Page 35 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


                5_ .'\CT "'as not o bligatod to repurch ne JOy de faulkd !O~ll ~ unck r the I"rm~ ofthc
      Agreement in tisca l yea. 1~~. since the 01"$1 IQans were m.ade laic in Ii ~eal vear 1999 alu:! no
      lo;"Ul~ had cnTe.d d efault by October 31, 1999. Throughout fiscal year 19C)9, ACT and Mllie
      \fac ~'U needed tn dl"l'lw on thi: Escmw Account to pay any defuuhs.

      ~ allie Mae Loan I1und~ Adju~tment

               G.     During fiscal yCtu" 1999, the S~~lll t ili:leJ the CI. ASS software system for
      acc()lInl in~   "Of sluden l Hid fllllliing, includins Tit l..:! I V fun di ng, llnd maintaining records
      rcs" rclin!; ~lucl e"l aCCOllnl jlctiv ity (and d"\e Sell(JoO l h:r..s continued to use lhe CL ASS systml \.l p Iv
      the prescnt tinTc)_ The C I.ASS s ystem plU\' i"~'::l;1 num bn uf dnla fields to track informa tion
      rel ated 10 studc nt accou nt s. induding a -rmn ~oct in n dale" and a ''pusting date:'

               7. Under LIlt: CLASS system, for Sallie Mac loans, the tran ~nc tinn date was e ntered on
      a studc nt account only a.lter the School had received the funds with re~ pecl to that student. [n
      mo st cas~s , weh fund , W~K re.:eived into the Schoo l bank account mUM llged throug:h th e [r.C
      corp(lIf1tc o m u: so thDI , upon rcc~ipt, the cor'pOf;)te olliee persolUlc1 would notify the Seho •., 1
      lh lUU~h a t[1m~m iltal d ocu ment that the fwlds b3d becu ~cci,ed ilnd in ~truc( lh~ ScI" ..,1 It, ereJil
      the stud ent 's il(;COUllt using the tram.millal [bh: a.i lhc tmns"ctio n date.

               8. Wilh n;pm1 lo the School's n:cd pt ofloa n fuod~ fmm Sallie Mae-, the Ir3n!laction
      date was SIJPportcd hy rece ipts for wire d funds, which ,\\--re dated on or before the tnulS<lctiQIl
      date for the affected studt-nls. Co pies of ~uch wirin!-1 records (im:ludillg till: re ~eipl~ for th~ l oan ~
      b~ ue-d 10 a1l26 studc nt ~ discussed at I-' oint, 26-2" below) are at Exh ibit I-D.

               ~.     The prcl"is!;' timing of Ih~ School' ~ rc:ceip\ or loan funds from SlllIie Mae ig fw:thel'
      suppork J by the SchOool b ~ok sta"cmcnt.~, which conftnt1 the r=Cipl o( Ihe ...';n.:u fm.ru. in
      Ol;lolxr 199'J, Copies o f lllO: wnl< SL1 t<"mellts t'o r the mOlllh o t'October 1999;1re a l.m ilt
      i:xilibit I -D.

                  10 Wi th re r,nrd !(J Sallie ~ac loans, [he tral1 ~ac tion date was only entered into th~
      CLASS sy~ tern aft er th e lEe (;orporate nfftce or School pt:r~onncl h nd confinneJ thi.llthc
      Ilpp l icable fllnJ~ had beon received into the Schoul'~ banI.: :Lecount and w~r~ il\"l\ ilable, witho\lt
      r~ s'rj",' ion, to ray the obljgalj lJn~ of the studenT. borrowers.


                11.  (;nd ...'f the CLASS system, io IiSl:al Yell r 1999 a nd currently, the posting date i:; the
      dat~   trntt a tr.msacliun on a st udent ,,!:Count i.~ ma nll., lly keyed into Iht' SyStem. The  pustip~ o llote
      is aut(Jmlllically ~enCl'3t.;:d by the eomput(" r system fo r tbe principal purpose o f docum~ti n!; <.Il11a
      entry so that. at ~t late r u~le , in the rare cycnl ""hen it might be nccc ....omty. the S",houl ",an
      dClc nninc when and by whom the tnlnsacti on Wll~ erllem.l and allY ~pec i al .::irc\lmsUlnccs
      re~<lIJi ng the transnction,

                12. School p~rsOllOO\ have ne v!:! had an)' ~lS{m to use lhe post ing date fo r day-to-dR Y
      lina ne i1l1 aid m:U1agcmt'nt <or ,,<'oolloting 1'1I'1" 1~!;,S aod still do 1I0 t m il d.l1n repmtli tm.<;cd o n the
      postlnl!, date, Th e poslin!!, <.Iat<' is invisibl,r, Inlhtl Schonl for fi n.Emc;ial aid ma mlgem!:fll purpos,\~.
      Sehoul fi nancial aid stall could flotllml slill call1lot acc:~ data rel:ll rdiog the poorting dme
      withoul the oul~idc IISSlsmnce or s~ial ized tcchnic~tl stafT_ ncc:m se Ih!;' OIU r.tlll;c rtain datil
      r.::pO!t~ using lh~ [lO~ti ng ~ystcm, the School h:\S al!lt) used the posting dale 10 prepare ccrl..m n


                                                              -4-




ED-OIG/A04-B0019                             FINAL REPORT                                                Page 36 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



      exhihits to this response, lmt othcrwi~~ the School staff do not me th e posting datI; r!lr any
      linanciaillid or accounting purroscs.

              1:1. The Schonl did not nnd do~s nut trc~t the posting date as a disbursement dale. All
      funds tm; ~()n~jdw;d ~r~Jit~J to lh~ ~lud~nt's occount as ofthe transaction date entered for lhos-c
      funds, rnr in~tanee, if ~tudent comes to the hmines~ offier to ~onfi.rrn Ih,lt cerlain funds have
      bc~n ~nkreJ un their account, the S~huol examines the stude m ledgcr and mcs the tmnsadiun
      dak Oil the ledger card to confirm the date and amount oflhe raYlTl~nl.

                14. i\ representative of Campus Managemeut, Inc" which de\'t:lupeu the CLASS
      s;'stem, has confirmed that the posting date is not imended to capture the date that student ~id
      funds <Ire credit~d tu the slud~nrs <I~~ount, und i~ not intended tor timmcial aid mllnagn"~"t
      p"rp",;c" including the calculation of an institution's 90/1 () ralio. Campus Man<lgement
      perO''(llmcl have contirmed that the "Cash Receipt R~port" is the standard rcport lI'ICd lu m~i~~urC
      'lOll 0 eOl11pli'Il1cc h)' ,,(he, in"ti(u(ions (hal usc the CLAS~ s}'s(em, and the ~ch{)ol used such
      Ca~h Receipl Rcpon to calculate its <)Oil 0 ratio in fiscal year 1r,i)l) and ;;uhsequem y~un,


                 15, The Draft RCjXlrt uses the posting date to dete rmin~ whetl fililcis, including Sallie
       l..tae Imm tillld~, were received lor purposes uf th~ 90i 10 Rule. "Tu delennine revenue for the
       'IDil () calculation, we tl"ed the CLASS system posting date data because it represent~d the dak
       lha( [u",is werc' "~lually disbnrs.cd to students," (Draft Report at p~g" 4).

             16. Bas~d on this methodology, thc OIG only counted Sallie Mae loans in tlle
       dcnomin~toroflhc School's 90il0 mtio if such loans had a posting date on or ~r{}re Octoher 11.
       1999. reoulting in the inclusiun uf il totul of~538.662 in Sallie Mac loans according tu th~ IJratl
       Report. 111 following this method, th~ Draft R~port excludes $246,684 ill Sallie Mac loan funds
       for 26 stud~nts v,·hose accollnts had transactiuns dalt:s prior l<.l OClober 31, 1999, hut posting
       ,bles on or "Ilcr November L 1')99, These stud~llts and loan fund~ <Ire identified on the
       spreadsheet m the first page ot'Exhihit 1,D. (We havt: not includtd the student ledgtr cMds
       sill~t: Ute OIG already has such ledg er cards as pali of the CLASS systcm dala providcd by thc
       S~hool.)


               17, In lh~ ~a~c of all 26 ~tudents< the School had r~eeived th ~ S246,6&4 fmm Sallie Mae
       un ur betiw" the transaction date, 50 that all $246,684 was ree~ived in ti~eal ycar 1999 (ilS shown
       ill the wiring   re~ord,   anJ bank ,tateelllcnts at Exhibit 1,Ol·

               I R. Th~ totill SalE", Mu<.: 10<][\ funds r~eejved by the School ill fi:;.<;al yeaT 1999 was
       corredl}, r~port<;d by thee School atld ils audilor In Not e :) uf (h~ 1999 .lilrlitcd fltlaneial
       s(a1cmenb as $785,146 (S53R,662 plm $246,(84). (Copy ofl\'otc :I llt l}xh.ibit I-E).

               19. The spreadshed at tilt: liDt pag~ or Exhi"it 1-]) demollstrates th~1 thc Sullie Mlle
       loans for 21 of the 26 s(udent~ lmd a posting date of"lovcmber 1, 1999. The total value or th~se
       loans \vith the :-O;ovember I, 1999 posting dat~ was $21 1\,895,

       S"lIie Mae Escrow Adjustment

               20.      rile Draft Repor( (at page 4) adjusls the S<llli~ l\1a", IO(l!ls inclllded in th~
       d~nQminalOr      of the \X}/lO Tat;o 11)" r~du~ing the total loan pr;n~iral by the 30% ll",1 wuuld b" paid




ED-OIG/A04-B0019                              FINAL REPORT                                        Page 37 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



      into the I--:scrow Account, flS referenc.ed in section 2,2 of the Agreement. Thus. lhe OIG input its
      ""~1 iigur~ of ~ 1(, 1,59') (r~rr~ ~~ l11ing lll'\{, of th ~ locm amOll1ll of$538,662, iI~ J1:,:ogni;.:o.;u by lhe
      OIG), even though actual cash transactions in thc tSCI'O'W Accolllll were significantly le ss,

              /,1, A, of October 31. Im, the sum of $41,259 h.w been deposited in thc E5CroW
      Ac.eount by the School or Sallie Mac. This figure i, ~Iighll)' higher than the figurc cited by the
      O!() in the Drall R,ep011. due 10 Ihe di~clwery of one additional payment to the Escrow Account.

               22. Subsequently, in fi~cal year 2000, the School made paymentR to bring th", Es~row
      AC(.()\LTltllP t() th", ~Ilsl()mary 30% ~()verage. All funds jJHid inlo Lh", Es~row Ac~ounl in lis~al
      yeal' 20()() were deducted from the value of the Sallie Mac IOllll funds in the calculation of Ihe
      School's 90/10 ratiQ in liscnl yenr 2000, consistent with the cash-basis accounting mlde r the
      90110 Rule,

               23.      ACT has calculated the value of the Sallie Mae loam for purjJ(lses of its 90/10
       ~ak\ll~lljQn    un a <:w;h ba~j~ C(m,i,lently (",r (i~~al 1999 and ~\lb~equent yea~, followin g the ~ame
       method ill each year to determine the value of those loans as reven\l(" in t1~ d~nomin-1tor of the
       90/10 ratio, ACT ha~ counted the loan fund~ actually re ce ived by the School in the relevant
       liSCdl !;;:,Ir, as reduc~d by th~ f\lnd~ (i) ,lduillly paid by ACT ll' the Sallie Mac K~crow A~eount,
       (ii) actually withheld by Sallie Mac and placed into such Escrow Account, (iii) actually paid by
       ih~ School for Sallie Mae IOdn refunds, mKi (iv) actllillly paid by \h~ S~'h\Jol to elimi(l<t\~ S<l.lIie
       Mae loan credit balrux:es, in each case in the relevant tiscal year. A~ a r<:~ul(, ir payment~ to thc
       E~nuw t\enlllnt (or ~n>' of the other refercnccd pa:'mo.;nt~) were actually made in the last month
       of a g iven fi~cal ye ar such payments were deducted in the fiscal y~~r ending that muulh.
       Similarly, any sLieh payments made in the first month of a giw.n fiscal were ,kdu<:I<:<1 from th~
       90/10 calculatiun for th~ [j,<:al y",ar begirming thm munth.

       Sallie Mac Credit Balance Adjustmt:nt

                24.     lhc Draft Kcport (at page 5 and Exhibit A) I"l:duces the value of the :::;allic Mac loan
       funds based on ~r~dil balan~~:; in the amOlmt 01'$148,065. The OIG al'!ually id~nliJkd a Iv!al of
       S211,s:J:l in credit halanccs on the accounts of the attccted students, and the OIG reduced that
       Ij~\lre by )0% ~iilce th~ OIG alro:ady h"d reduced the School's Sallie Mue loull princip .. l b .. lrulec
       hy JO% bllsed Oil the OIG's intel]lreialillll ofth~ requirements of the Escrow Ac~ounl (~~
       disctlss",d 'Ill'oinl 20 ilbuv~). Thus, the $ 148,065 is. an adjusted [igure (70 percent of $211 ,52l),
       A lislin['; ofthe credit halances for the aIT~dcd students is at Exhibil I-F.

               25. Tht OIG's adjustment for credit btlanc~s is ha~~d entirely on credit billal1~es
       ,('corded Oil the students' ,lc~<Jllnl~, without regard to when those credit balallc<:g were paid

       Sale uf Inslitu{iomil Retaillmtallment Contmcis

                 2fi. rhe School wnduJ",d loc sak of ilistitutionalr~liiil insl~llmcnl contracts {"RIC."
       al~o   referenced as ~tudent rdaii in~lallm~nt D.8 r~ements in c~[tain exhibits) on Ucto ber '!9, 1999,
       that rc~ullcJ ill lh~ receipt of an D.ddition~1 S90,295 in non-Title IV f\llxls in fiscal y~D.r 11)99
       This sale transaction was mistakenlv overlooked and the sale proceeds wer~ not indudcd "' the
       ':I(Jil0 l'ilk"lntinn ll, migi,mlly p<lrf~rmcd by the S~h<J(ll ,md lIS rmdirm. TI,,, School disco\'~r~d
       the sale dcx:uments in preparing thi~ rC3ponse and pre~ent~ them to the 010 tilr the iirolLim,· in




ED-OIG/A04-B0019                            FINAL REPORT                                                Page 38 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


      ~onnection wilh this rc~ pon ~c_ '111is $9-0,295 was the payme nt rcccivcd from an independ ent
      third pa11y, ~ s dCIll {'lt1~trated by lh~ wir~ lnmsih rcco n.b o.,ld purchase agreement 1ll exhibit. J-G.

              27 , The wire transfe r record s arc both dated October 29_ 1999 , The first reco rd refer.q til
      a transfe r e,f $90,2')1$ (fM ACT) and ~ second 110n- ACT tr3nsfc r of $90,000, The record emith:d
      ~ lnwming Wi n~ T!lI.n~fcr Alhiu:,~ states at tb.e tOp that : " fhi ~ fulld.~ tramfcr has been recei\I\XI
      on ~half or you r CUStomer on ]<J<J9-1 0--29 ,Hand SOCS o n 10 nam e Advanced Calttr l"taining 3S
      the ocJJeliciary. T he ~9029 S i~ rurther co nlirmed in dIe pUr<:hn:;e agn:cmCllt, blocked ull l'ly the
      IS-page ~ ht!IJult to Ihe pU fcha'>e ngrc:ement. which iric nt i fi ~ the studen t R I C.~ lhal .....~
      Tran.de rred lor ea.iR. TIM: pun:l ~ aifCCnlen! .,Iias nOfl-recoUl sc.

                                                     DlSt:VSS LO N

              Th;.: Droft RepO t1 m:ll.es Gerl~, iT1 fnnrbmclltal c rror~ in its appl k a lion or ~ash-basi s
      account ing and other aspects of the n:e,,-lcllh~t i(H! <)fth~ School's 90/1 0 ra tio th~T reduce the Brcl~~
      value of the Sallie M'IIe:: lo an~ r~c¢i'Td and inflate ec!tain factors Ihut kad to even further
      r~duc\ion~ in the vull,e of su~ h ' o~n ~ f(,r p"'1"'"e. 1)1' th .. Suloool ' s 90il 0 fat io_ In ~ddit inn. Ihe
      School hilS idel\lifi~d du~ u mcntation to sub!lt Jllti:'ltE! the ~'1lc o f slucl~nt RI C~ in fiscal 191}\ll bat
      ~cfk:ratcd an add itional $90.295 if] non-Tille IV rE!\'enue reccived in th.HI YCIII .


              -' 11<; Ol(j's alld the School's clIkuhtl io nl> arc displayed o n a compar<lliw oosill at F .~hibi t
      I -A. The!IC charls II f¢ pn: pared in the S3nlC fon n AS the OIG's chnT1 labd t!IJ as Ex hil'lit 1\ in d l~
      Dlaft Rc pun. tu ing the fi pllre<, from the oolumn labe led " ()IO 1'IUU RES (l'm1 Dall: Uala)"' ~j ncC"
      the Ol G u..<,ed the pos ting d:ltC tv determine tile lI;m Sil~li tms incl uded in this calClt\;lI ion (Set.
      P,)inl 15 above).

                                       ,"on-Title IV R evenu e In I)cnomiuator

               ·nlis po n i()n orlh~ rCS(Xlll'lC focu ses e Xl:lu~i\'t: l y ()n th~ treatment of the Sallie M,e lO!ln~
      ~s  a ,<)urce (I f nO ll- r ille IV fe'venue 10 he c<mntoo in thr deno mina tor of the School " 9011 0 ro.li\)
      (15 rccakulatcd b~· (he OIG. Foo purl'0sc~ of this tespon.<c, the S;;:ltoo! does not dispute the
      In:iluncnt o f ot her itcnu in lhe O iG cakulation vf flon, Ti de IV revcuue. !

               L       S .. lIic :\Iac Loa n Rennue

             f be D r.l ft Repeln uSC"s Ib~ fillUTl' of $53S,M2 as 1~ lotalloan principal n:ce ivo:d by Ihe
      School fmll1 Salli e Ma~ looll..~ in fi"",al ~·"a r 1 ~ . Th i~ fi sure i~ derived from the fund~ that were


      I The Draft RepOI' , cn nlirm s that the Salli~ Mac re'.'Ollfse ' oan~ qualify 10 Ix: count ed as no n-Title
      1\' f,venue in the d l.'llO!\linuw r of the <)()il () e(llculalilln, allhul.Igll we disagree with the 01(", a~ !()
      the :K!justm ~ nl ~ to arrivc at the correct wluation, According ly, we do not discuss t he'
      hll1damental nature or chamdcristics of the Sallie Mac l oan~ in detail, but tOcm ou r di;~u ~,ion
      ~\l !dy o n tile ~h; ,II~ng~'d adj u..o;tme nt~ . We rcserw our ri~h t lu ...examine the natuce lal\d
      chil r;lCtc r;'(IU of the Sallie \tIae !Uilrni and ~ ubmil !lew c \'id eno::e o n that subjed i f lhal heco mc~
      ncccsc;aI} ,




                                                             ·7-




ED-OIG/A04-B0019                            FINAL REPORT                                                Page 39 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


      indicated wi1h ~ ["Osting datc in fiscal [999, sincc lhe OIG u~ed th~ JXlstin g date under the
      CLA!':S sy~lem to detennine if the funds were rec eive d on Dr before Odoher 31, 1999. Th~ OIG
      rejected Ihe School's figure of$785,346 ill S~lIie Mac loan~, which wa~ derived by identifl'illg
      loan<; according l(o the transaction date in the CI ,ASS syslem, even though the transaction date
      r~p""enteU 10,U1 limds a<:tulilly received by the S(;hool Ii'on} Salii", Mae on or bero,),,,, Iht;:
      lmnsaction date indicated on the student's account record. The OIG's method rcsuHs itl ~
      ~igI'.ilie"nL rcduction in the SaniL' :'viae Imm Tevenu" as calculmed by th~ School and its auditor,
      ~ll1ce there were Sallie Mae l(lam to 26 student" with a total "lilue of S24G,4IW, that had
      transaction dates in fi~cal year 1999 hut ["Osting date~ on or after November I, 1999 that w~re
      excluded from the OIG's recalculation, These 261Qans, with the related wiring and bank
      records, arc idenlilkd at Exhibit J-D.

                The OIG's use of the figure deriv ed from lh~ posting date rath er than the transaction date
      is wrong a~ ~ matter of fact and law. The Draft Report (at page 4) ~tatcs that "the 'tran~aClion
      date' fIeld eont"ined lnc' Jak th~l toc transaction should havc occurred per ACT/IEC o[[iciah.
      ACT/lEe ~lajl enh:red the transaction dates into the (:I.ASS ~ystern" 'rhu<;, the l)r>JXI Report
      would SlJ£!.[',esl ihat the tran~action date i~ nothing hut a prediction ofthe date that a tran~action
      "~I1C,luld" oc~ur This is a fundamentalmimnd erstanding, \vhich ignores that the School never
      d~l~rmilJ~d ,md ~"tered tlle trall&"Ictioll datc fOi Sallie Mae loans into thc CLASS s}'~tem until
      ,uch funds had been received in({) th~ S~hool's bank aecollnl. (Se~ Poinl 10 above). Further, lhe
      S~hO(l1 Ir~~lCIL ~lId wnlillueslo treat, the 1ransaction date ilS tile diltc that funds me c,editcd l(J
      the student's account The posting date has no pUJ1Xl~e in lhe S<:hO<Jl'~ nonnal iinandal aid or
      accounting ()~ra\ions, and the OTG i.1 the only party that has ever used the posting date to
      gcncra\(' diltil ,epon, for finJIlci1l1 ~id PUll)OX~. (S~~ Point 12 i1lxlv~), Ci1ll1PU~ Managem~nl,
       Inc., th~ creator of the CLASS sy,km, ah" h.as aJvi~"d lh~ SdlOUI tlml the CI./\SS ""rlwar~ i.,
      1I0t de~,i gned for any in~litllli()n 10 usc thc po<;ting date for financial aid managcmcnt OT tn me
      thill datc as the cljllimlCflt ot it disbursement dme. (See j'oim 14 itboye ).

               111(,' iSSII~ ofho"" to ~aklilate lhe Sallie Mae loan reyellu~ ill the Sch()nl'~ rati" musl hc
      analyzed ulldl.'r the precise 1erms of the 90/10 Rule, alld spedtically the requirement to foclI> 011
      thc hlllds '"received" by the insliluliun in the applicilble yeilr Th", Rule ill dl",d in Ji~~al 1999
       stat~ d:


                  (2) Under Ihe fradion contained in raragraph (d)(l)       ofthi~   section

                         (i) Except as provid~d ill paragraph (h) of this ~~dion, the title IV, HEA
                         program funds includ~d in the numerator and lhe r~V~lllre illcilKled ill th<.:
                         J<.:nominutor are the amount of title IV, flEA program funds and rev enu~~
                         receive~ by the instiw~i(l!lduring the insliluliull 's lasl r;umplt:l~ [isl,al yt".ar,

       34 C [:.R. ~ WO.5(J)(2)(iJ (emphasis addcd). l1y its terms, the rcgu[atioll lequires no more 1rum
       lhat llK fllnd~ he "rcc~i,,' ed" by the instilutiun, whid1 i~ s""lisli~u wlim tli~ 1'1lTllh "re depllsikd
       into the institution's hank account.

                Th~ Draft RCpot1 would ;ug~~st an atldilioIl~[ n;quircm~!lt that thc fund~ be rec eived and
       postc:d to the sllluml 's uccount to he included in the 'KIll 0 calcula1ion, but no such rcquirement
       exisls in lh~ n:f'.lliatillil \1orwver, lhe addi1ional re quire m~nt as proPDSt:U in thc Draft KC]J'Jrt




ED-OIG/A04-B0019                             FINAL REPORT                                              Page 40 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



       would be flatly inconsistc!ll with cash-h<1,i~ a~c()unling. A~ the Secretary h~s explained. c,,",h­
       basis accouilling me~sures when the funds are received; no more and no less.

               Second, since th", institlltion mll~L rt\porl and ac~ount lur title IV. IlEA program
               I"unds on a cash ba;;is, the institution must also account for revenue in the
               denominator on a cash basis. Under a eash basis aceQunljm!. the instjtution
               !cporL;; n;vcnuq Oil the dut .. that !.hc n;v<.:nucs Ut« uclually re~ehed.

       59 Fed. Reg. 22324,22328 (April 29, 1994) (emph..9sis added). In a 3ll11seqllCnt rolcmaking, the
       S~crctiU-) n.;cmphJ~ized the meaning of Cdsh bMi~ itC<.:oullting: "Under tilt: cash basis of
       accounting, n;Vl;[LI!!L1HM wj;ccd by an entity when that entity reccjves cash, i.I:., wh~n th~re is
       an inflow oreash to the entity." 64 red. Reg. 38272, 38276 (July 15, 1999) (emphasis added).

                Tbt: ,ml v ~e<.:tiun oflh~ 90110 RuI~ !hat even mentions whdh~r funds were '\li~bur~~d" or
       "'delivered" to the student is paragraph (d)(2)(v), which i~ written with specifi<.: r~fer~n<.:e 10 th"
       "'pr~sumpti()n" that Title IV lllnd~ (in th.. num<:wtor) ~H; pr~~lIml.:d 10 b~ u~<:d lu pi"l) tuitioll, [~~S
       and institutional char8e~_ Thi, paragraph dOt:s nul state or l'Ven imply, as Ihe Drafl Rq:"'rl would
       "lggL'_,l, llliLt rund~ ,m: !lot "received" und er cash basis accounting, to be includw in the­
       denominator, umil the y are disbur~~d 10 Ihe ~ludmt, amlth<:r~ i~ no ba~i~ lur Ih<: DIG lu iJlvuh: 11
       disbursement requirement Lur ,m>' uth<.~r pllfjXlse in tIle 90/1 () Rille.

                'lh", Dr~f\ R~pllrt would ignore th e meaning ofthe transaction date as intended under the
       ("1,ASS system l1.nd as impkm"'nted by ACT with n.;~p<:d tu the Sall ie Mac loan fund,. TIle
       S<.:houl aeluully treated (and continues 10 treat) the tt'flnsBction dote as the date thut funds were
       credited to ito ,lUdents' ,\'-'counts m; a payment "f til<': ~lul.kllt' 5 ol,jigations, as is ~orrect under the
       CLASS system. (Sec Points 13-14 aoo"",). Under the Sallie Mac Loan Agreement, it is c1"'~T
       Ih", S"llic Mac ac-lU"ll~' di,buucd fllnds to \he students (as identitied Ill' name and ~xael Jollar
       amount on the wire transmittals) when it wir~d f\lnd~ on bdmlf of those students to the School's
       Imllk a<:crmnL (S~e Poim2 aoove). The School then entered a transaction d<lle on the ~llldenl'~
       account to r~n~et Iha\ the rl1nd~ for that student had been re<.:eived ~nd cr",diwd as ,!-_pavment 011
       th~ ,tud~llt'~ ilCCOllJl1 on or before sw:h 11"!In~~ttion d:lt",_ Acc()r!iingly, tll~ full amount of
       $246,6M !()r lh~ loans wilh trama<.;tiull dates prior to Octohe r _) I, 1C)<)i) must be <.:Q\ll1tr.;J in lh~
       denuminillor of the Seh 001' s 90/1 0 ratio for fiscal y",ar 1999.

                   In addition, it is not"ble Ihi1l21 "rtl", 261""w" ilL tllis group hnve a posting da,~ of
       t\ovemb~r       1. 1999. rUT these 21 loans, in the amollllt DC 'P \ g,R9\ lhe SdlOol rntid~ the llhUlLIJi
       accountin g entry rh"j gen~raled th~ posting date 011 November I st. lh,' very first husiness da:
       l"ollowin!5 dlt: ~Ios~ of fiscl1.1 year 1Y"Y. Fur dw i)wi"i K~rort to deny that lh~ s~ 10<1IH b<;loL1g ill
        Ci~cal year 1999 is to suggest lh"tthi, i"LLe should be decid~d by til" meeh ...ni~,,1 ljllcition <1f
       \vhell cCltain entri~o were ITu,u", in th~ School's CLASS sylt~11). r"th"r than when lhe t"tlrld~ w~r'-'
       aetualiy r~~eiv"d by the School (a~ docum~nl~d by Ih", wire ,HId haHK reeol'l1s) and credited ~y
       the School to the ~ludt'nt'~ ac~""',t to pay the studcnt's charge, ((1_, rdl""t~d hy the transaction
       '.tUli.' Olllh~ kd~." c'lI·d). The Draft R~port i~ ignuring the "ctlml meaning oftlle transaction dalC
        in tile SdlQol's records to nKll~ un th~ sh~e[- happcn~tance of wh"thcr!l SdK){)1 ~lnployee <;tayed
        Idle on Yrida}< Octowr 2<:>, 199<:>. (0 m"k~ c<'T["in ac~ul1n1-in8 entries, or ,,,,,,,;ted until Monday,
        NL1vemhcr I, I "99. to muke th\J:;~ ~nlri~. Thus, th-e 010 is not 01111' llli5characterizing the




                                                            -9-




ED-OIG/A04-B0019                           FINAL REPORT                                              Page 41 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


      rnt:aning of the transaction dak and posting dat~ within th ~ School's CT .ASS system, hut also i~
      pl<iving 10rl11 cmircly over slibstance in analyzing this issue.

               Tn sum, as the Secretary has explaine d in unequivocal tenns, cash-basis accOlmtillg
                ""clu~ively CHI when cll~h is no<.;",;"",d or paiu. It is plain (hal funus (hal h"-,,c been
       i'",;u:';4;"
      dejXJ~ited in ~n in~litutioll's bank account for tll<~ use of t~ institution have been reec:ived by that
      institutiou. TI", 90/1 0 Rule rCljuir"~ unl} that funus be releived to be included in the mtio, and
      the additional $24(',4RO in Sallie Mae lo"n funds id entified at Exhibit 1-1) were r~ecived in
      Octoocr 1999. These fundsmusl be <:uunkd for a lolal 01'$785,346 in Sallie Mae loan funds in
      the denominator of the School's 'Xli I (J calculation in fiscal year 1999.


                      2.     Sallie Mae Escrow Adjustment

                  Thc Draft Report proposes to adjust thL' lOlal Sallie Mat' loan principal for escrow
       payments r..:fcreneed undcr lhe Sullie Mae Loan Agreement, as if lhe OIG were in the position to
       enforce th e terms of such Agreeme nt. The OIG does so by reducing the tot~l loan principal by
       31J~~(' to lelleet th~ anlOLint to be paid into the t:scrow ACC01.111t, pursuam to SectiOl' 2.:2 oithe
       Agn:em~nl. rhus, the 90/10 cakubtion inlhe VrafL R~pllrl rt'uu<:eb tht' SGlllie Mat: lOGIn
       pl'il\ci pal by SI61,599 (30 pcrco;;nt of the 853 8Ji{i2 in Sallie Ivlac loan rcvenue accepted by the
       010). The 816[.599 is "- d~rived number lh"-t has nu relation to the ca~h twnsadions in the
       )-;snow AC<:Ollilt as lli' (klober 31, 19':19 or t'Vt'1l a~ of a julur~ Jat~.

               Lmkr cash-basis accounting, the only propel" basis to adjust for payments to the Escrow
       Account i~ to reHect actual payment~ to the E,emw Account. As of October 31. 199'), the
       School had paid a total of:!l41 ,259 inlu lflt, ESl'row Account (~" Point 21 abon~), anrlthat i~ the
       entin: amount tlml prupt!rly can be subtracted from the Sail ie Mac loan funds 011 the basis of an
       escrow adjustment.

              Additional limds that the School paid into the Escrow Accounl in the ~ub~eqllent month,
       l\ovember I <)<)<), wen: JeuucleJ in the School's 90/10 calculation for fiscal year 2000. (S<:e
       Point 22 above ). Thus, the School has accounted for every permy ~etually paid into lhe f:scl"l)"
       Account "n a co",i,lenl ca,h-ba,is, with all funds counted in the yeru' in which they were paid.

                      n,,,
                      Draft R"port'~ pnsitiotl em thi, i""ue would tl"'Jmfonn ~n~h_b~sis accounting into a
       hyhrid of cash-basis and lleCI'Ulllllecounting. The OIG would go bc~'ond lr:<d,in~ lh~ ,hIe that
       cash w~s actuaUy p,lid or r~<:eiv~u, and e"n~iLkr oth~r factors relating to the rights ll11d duties of
       an institution nndcr a contract with a third pmw (the S~llie Mae Loan Agreement) tu ~valualt'
       when funds mayor noi bt: cun~id~T~J "available" under such contract. (See Note 4 of Exhibil
       Aj. Th~ Owfl Report (at page 5) goes so far as to say that the OIG construed the Sallie Mae
       I.oan Agre ~ me nt to determine Ihal ACT \V~~ "lit '\:"tilled to re ce ive" the entire tidl amount of
       the IOJ.ns, while ignoring lhal ACT Imd in fact "received"lhat entire. "'"Olml in the form of
       deposit:; in ils b,mk al'eollnt;n fiscal year 1999 and Ihal ea<:h sluJ~nt'~ ileeOUtlt had bee n properly
       ercdit<,'J h,' the School before the clo~e or [hal fi,c.,,1 y~"r, lIS reflected by th" tmnsadioll date on
       Ih" ~lllden't's accuunt. Th~ LonsiJ~nlli"n oC such cor;traclual ril!hL; or ohligations is not relevanl
       III cash-basis accounting. Indeeu, to intrnduce such factors is to inlmduce c.ertain principle, of
       a~nl!i11 accounting into thc <:ash-basis syste m Morwver, a:; ~cl furlh at Point 4 above, S~llit'



                                                        - 10 -




ED-OIG/A04-B0019                            FINAL REPORT                                        Page 42 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



       Mae has never challeng ed the School's handling of the Escrow /\Lcount and has never withlleld
       loans based 011 any concern with the status of the Escl'OW Account. Thus, the OIG's method is
       wl'Ong and its coneern is ~imrly mi,piaced. The OIG is Iltlempling to raise an issue under the
       SJllie 'vIil e Loan Agreement that had no dfed Dn th~ availability of funds provided pursu~nt to
       that Agreemt:nt in ii>.C;{1 yt:;{r 1999. The only funds that "an properly be deducted in iisew y"'~r
       1999 based on th e Escrow Accuuut are fumls paid intu the Dscrow A"COU11l in fiscal year 1999,
       or $41,25Y


               3.      Sallie Mae Credit Balance Adjuslmtlnl

                Thl!" OIG also has significanlly redlK'o:d th e value of the Sallic Mae loans ro:Gt'ivo:d by tht:
       Schllill by subtracting for credit balances on the students' ncwlInts. The Draft KepNl(at page 5
       and exhibit r.) r~duees the value ofth.e Salli~ \1a~ IOlln principul bu~~d lm ~redit bulances in the
       amount 01' ~ 148,065. 2 That figure represents a ]0%, r"Juctiml l)t tbe 5211 ,521 in <:r~dil bal'ln<;"~
       on ,h<: stlJdt:nt aCcDunts_ as shown at Exhibil1-F. Th~ om llIl\de th~ 30% ddjl.lstm<:n! sin(c th~
       Ole ill.,,, rduced the School's Salli~ Mac loan principal bnlancc by 30% based on th~, OIG's
       interprctation ol"!hc rt:quin:mt:nts of tho: Escrow Account, (St:o: Point 24 ahove ).

                  The S I4~,(J65 is a derived figure, calculated by the Ol{i without regard to when the credit
       halances were actu(llly paid. The OIG 's calculation onlhis point is anotho:r t:ffort tu inje,·t
       o:xtml1eOIiS tilctors into the cash-basis accounting r~qllircd under the 90/10 Rule . The only
       adjustment that can properly be made for credit balances is an adill~tment that ret1 e et~ wh en
       thus", ~r~dit b<llal1c~s wcr;: <I~tu<llly paid. With regard to the .qtlldenl~ li,ted at Exhibit I -F, Ihos~
       credit balanccs WLTC paid in fiscal >'ear 2IX)() and lh(),~ P"YJrI'-'IIU rcdllced lhe valu~ oCS"llie \1al'
       loans in the School', 90/1 () calculation 1')1' ii.'>l:<ll ~'ear 2()(}O, (Sec Point 23 above). The OIG's
       mnhuJ would actually force tht: School to "double count" for credit balancO:5, in fiscal yo:ar~
       I ')')') and 2()()().

                [" thi~ {<,;gard. it i~ ~igniLi~antlhaL as uf fiscal )'car 1999 the DepartmO:l1t had not issued
       <'Iny rcgula.I,'ry guidill1(;~ ~pa;fica.ll)" ~dJ{e~~ing th e Ire ~tr'rlCtlt of credit haLlrteC~ in the 90/10
       calculation. Whik the Secretary issued guidance in the Fo:deral R egi.~te r of Octoher 29, 1<)<)') (64
       Fed. Reg. 58608 lit 5R61 0) indicating that titlKls held m (;n:tiil bubneo:s g"'ner~l1y arc not (;ounted
       in an inslitutiun' s 90/10 ~alclll~ti()n, that guidance was pllhli~hcd on the Ill.~1 bu~inc88 day of the
       Schoul's tiscal year 1')')9, in cOllne ction with regulatory r"vi~illm that did not tak~ dTe<:l until
       .July 1, :!()(j() A, a re:iulc the exclusion of credit balances from the %/1 0 ~alclllatiun WHS nut
       expressly called lor until fiscal year 2000. ~md the School prupcdy tallied its credit balance:; in
        Ciseal year 1999 according to th" cash hasi" accounting mandated in the 90/10 Rul"

               A,suming. solely for the ~akt: uf argument, that the UIG maintains its position that         fill
       mljustm~Ilt fur ercdit b~I~lIce3 is rcql,ircd, toc Sehoollms p" rt'ormed an alternative 90ilO
       calculation (at Fxhibit I-II) ba.~ed on the OIG's pDsitioll, III revicwing that altenmti vc

       2Tho: Dmfl [{"'port (al page 5) also refers to adjustments for Title IV credit balanc~s, but no ~uch
       adjll~tmcnL'  are Lxplain~d or ""idellt on the face or lhe cJlc(llatioll itt Exhibit A. The School
       reserve, its ri ght to reexamine any Tilk IV <:red it balance adj LLstmcnts if the OrG identities [lilY
       with'lx:cificity.


                                                          ~   11




ED-OIG/A04-B0019                          FINAL REPORT                                            Page 43 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



       calculation, notc that the 010', miginal credit balance figure did nul incorporate the Sallie Mae
       loans to the 26 stud~ nts (in the amount of $246,684) who wcre incorrectly excluded fj'om the
       calculation <.Ine to their pmling dates. Thesc 26 students had $ 1 14,112 in credit halances on their
       aLL(lunts as of October J 1, 1999, (See Exhib,t I-I). (We have not induded thc sLuJenllcdgcr
       caT<.I~ ~il1e ~ the OIG already has such ledger cards as parI "rIm: CI ASS systelll data pruvid~d b)'
       the School.)

                These credit balances, plus the $211,521 in credit balal1e~s previously id entified by the
        OIG, produce a tol~l value of $325,633 for all Sallie Mae credit balances (S211 ,521 plus
        $ I 14.1 I 2) as orthe t:nu uf tIlt: fiscal ycar. Rather than makin g a 111% p~reBnta ge reduction in
        the value ofthe credit balances as proposed by th~ OIG, in its n:vi~cd calculation the School
        has reduced the total Sallie Mae loan principal by (h", full amount of the credit balances
        (SJ25.633) on all Sallie Mu( loans. 3

               l:nd er thi~ calculation, ",1)(:11 the Scboollecd ves the full value of $ 785,346 of Sallie Milt:
        loans r<ec eiv~d in tlscal year 1999, ~nd even aiter r<educing that figure by lhe full yalue oftlx:
        credit balances and the Escrow Accounl, the School derived just 89.1% ofils revenue from
        Title IV sources ($6,025,205l~ (" 75.1,294). ACT clllphasi;o:cs that it dOt:s not accept th~ OIG's
        treatment of credit balances as correct for fiscal year 1999, and it has slibmilted this alternative
        cakulmion solely to demonstrate that, even under the most conservntive treatment of eredit
        baLUl~es, the S<:h{)()1 ~till satislled the 9OllO Rule in liseal year 1999,




               4.      S91c of Student RICs

                  The S<:hool' s <:~lcula(ion i!lcJIIJc~ Uil <l.dditiomll S90,295 in the denominator fol' th e sale
       of student RIC, that wa, concluded in Odoocr 1999, bUl w,,~ mistakcnly overlooked when the
       School wid its auditor performed the ir origin~l 90/10 calculation. In ~ccol'dan~<; wilh UI<: cilSh­
       basis accounting procedures for the 90/10 calculation. ACT has counted only the funds received
       in fi",,'al year 1999 on the sale of su<.,h RlCs,

                The re~eipL 01'$90,295 is Jelllolls(ml~tl in th~ wir" transl"r re~ord, and purchase
       ag ree m~nt  at I:xhibit l-U. Ihe wirt~ tramfnrecords are both dated O~tub<:r 29, 1999. Th e
       sCTond record. emiile d '"Incoming Wi re Tnmsf"r Advice," ~lal~, al,hc lop th.,l, "This funds
       Irun~fcr h,\~ I:x:cn rc~cjycd on behalf of youI' customer on 1'199-1 U-2l}," and gocs ()n t() llltruC
       Advanced C~reer Training il.S the bencliciary. Tlo;: $9(j,295 is fllrlhcr ~()n[irmed in the pUIch~S<':
       agrc~LHcJ]L !n,cked up by the 15-pllge schedul e to ih.:: pureha~e agre~ ment. which idcntiii~s the
       student RICs (h~t were ~old in fi~cal year 19?'l, gcncrating rcvenuc rcccived by the School in
       fheal ;'-Tar 1999,




       'Ho\ycvcI. since the 010 hao mllde certain modifications to cash-b~sis ~ccounting in the
       n:c~kulation ill the Draft Rep()li, the School reserves the right to revise its credit balance
       adjustment tD he consisient wilh the moditications proposed by the 010.


                                                             12 -




ED-OIG/A04-B0019                           FINAL REPORT                                            Page 44 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT




                                         Title IV Revenue ill NumerJltor

               For purposcs of thi~ response, WI:' have accept~d the OIG's figure of $6,025,205 in Tille
       IV   r~venue in the numeratur of the Scho!ll'~ 90/10 ratio. HOWeyef, we IlOtc thalthl,; SChOll!'~
      ~al~u\ali()!l ur ils Tilk IV r"'v~nUt: at the li1l\e of the audit was $5,826,583, appr0>:illUltcJy
      $200,000 less than th" OIG', figure, and \V~ reserve Il,~ ri gl'llu re~xami!le tl1<;: OIG' ~ calcl.llatioll
      [)FTitle IV revenue and submit new evidence un that point ifthat becom-cs ncce~s~ry .

                                                   •                       •
                R]S~d 011 the HdJustmento discussed above, the Sch\XJl's ':10/10 mlio in fiscal year 1999
       :;hoilid be corrected to shov.' Title I V funding ,eplesented 85.1 % of total revenue
       (5 (\,025,2(JS.'SH178,927). as showIl ~\ bhibit I-A, Thh calculation follows ~ash-b~sis
       accounting by inc1l1uiIlg \h~ additional $246,4~O in Sallie Mae loans, l eduCI:'d by $41 ,254
       act",oIly paid into the rscrow Account, and O!I~ including lh~ S90,295 for the ~tl.le of RIC~.

                III additilln. th~ SdW0\ 3mi~jie3 the 90/1 0 Rule under the altcmativtl calculation that is
       based on the DIG's fX"ilio]\ un creilit balanr.;I:'s, as ,.kmonstrateJ at Exhibit I-H. This calcubtiun
       j, the same as CilSCllSSI:'d in jh~ p"iar para!)wph exc~ptthal the S,.;hool would exdudc th,.; ft1l1
       valuc of the n edit balanc~s frOlll the total Sallie Mae loan revenue.

                Accordingly, we ask that Finding No. I     b~   dimina1cd in th~ hu",] Report,




                                                         - 13 -




ED-OIG/A04-B0019                         FINAL REPORT                                            Page 45 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT




       Fimling No.2:       ACT Brcal'hed Its Fiduei:.!), Responsibility Regarding the Usr of Title IV
                           }'uuds


               FllldiI\g No.2 state, that ACT did not nmintain Title IV funds in illl interest-hearing
      account ideniificd as containing federal funds until the fllnus were disbursed tu stlidenL~, and that
      ACT did not dishurse Title IV funds 10 students within three business days following the date the
      institution received the funds_

                  At the outset, ACT will conet:d~ lh<lt fur the pcriexl <:uven;d b} tb~ OIG audiL, ",hi<:h W<l~
       school lis<:al y"ars 1999, 2000 and 2001, it did nut consistently disburse Title IV funds to
       >l.lId<:T1l~ in aC~l)nll\[[CC with all applicable ED requirements. ACT would like to addrcss that
       ~itllatiun fur that lime period and de3cribc lhc polici ~ s and procedures that have subsequently
       been implemented to assure compliance with applicahle rc~ulations.

               First of all, ACT \\i,h"s to confirm that during award years 1998-99 and 1999-2000, it
       did alway~ draw lk)Wll Titl~ IV funds into an interest-bearillg account identified as containing
       ftdera1 fllmb, A listing oflh" hatlks and the account names and numbers is provided as
       Exhibil2-,'\.

                    Durln~ award yc:ar 2000-0 I to the present, ACT has always maintained Title IV funds in
       hank accoUlm ide ntifi ed as containing federal ftmds. See Exhibit 2-B for a listing of these banks
       and lht ''''<''O!lI1t mml<.~S and numbers. Dilring thi.~ pl~riod, however, thc'lC fl~dem1 flllKis a"counl~
       were not interest-bearing accounts be~<luse ACT determined lhat the interest that would he
       <:ar11\.:<.1 on the fund~ in Ih" ac(:ounls would he le.<;.~ thU,n lhe required rcgulatory minimum 01' S250
       per YCM. ED regulations at]4 Cl'R {(,('R.161(e)(1) provide that an institution docs not have 10
       maintain Title IV funds (ollK:r thm1 Pcrkil1~ Loan lumb) in iln int<:r~sl-bcmillg ac"ount if the
       institution will not eilrn over $250 on thos~ rlimb during tile award >'taL ACI' discussed this
       regulatory requirement thoroughly with its third-pany sen'leer, Global Flnanehtl Aid Services,
       and dettrmincd (iui.l lh~ int~r~sl mat ..... ould [x, earn~d Oil il~ fed~ral flfid, ,,<:col.ln(~ would b~ l~ss
       thnn S250 mUlu~Il~·. This is due to the limited volum e ofTitk IV fimds dmwll by the school,
       ACT" .. prrtClicc oftrrtnsferring the Title IV funds am ofthos" accounts within one day, and the
       low rate of illtere~1 tamed Oil sll~h ac~oullls,

                  I-'ur ~)\<ll)lplc, ACT currently draws down approximately $6 million in f'itlc IV funds ~ach
       ytar. 'rhe interest rate availablt: un su~h iKc()lInl~ i, currmtly 1.2 percent. A~~uming all funds
       drawn nrc hdd in the fcdcwl funds uccounts for one day, one day's in\ere8t 011 $6 million at J ,2
       pcr~eJl( i~ dpprm-;imatdl $200, ACT has b~en h,td b)' the hank. wher" its f~d~ral lund, ucc(>Clnh
       arc loe.1\cd th<ll the wire transfer fees charged by the banks lor slich a~counts would he several
       time., th<lt amount, approximatel y $4,000 per y~<lr. Ther~f<.)r~. ACT dclennined it was not ~llSl
       drective to plact" these funds in intcrcst-hc~rin £ aee(>lInK so long as the anticipated ~nnual
       inl<:rL'sl ,lTllOLJnt was hclDW the re gulator), threshold. If the 01G has any further specific guidauct
       Oil thi, r:d nt ACT would appr~<:ia(~ r~<:<:i\'ing it.




                                                           . 14 -




ED-OIG/A04-B0019                           FINAL REPORT                                             Page 46 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


               As indicated, it wa.~ ACT's practic~ durillg th~ y~llfS cov~r~1 b)' the nudit to tmnsfer th~
      Title IV fililds it r~ce i,'eJ (Jut of (h~ federal fimds account and into it~ operating account
      "pproxim'llely on" d,,> "l1cr thcir reCtipl lrom I-J), ACT did this beCallS" II predominant numb er
      of ACT students u~c all of the Title IV fimds awardcd to thcm to pay institutional chm-ges (i.e.,
      tuition, fcc" h.-)ob and related charges). It was ACT's illt~l1t that, immediately upon transfer of
      the fund~ to the institutional operating account, it would credit the funds to the students' tuition
      XCClUnlS_ TJnforlllllatdy, during th e period covered hy this audit, this did not alw~ys h~ppen on"
      con~istt:m basis, and lllnds \vt:rt: not consistently creditt:d to students' accounts within thrt:~
      bllsint:ss ua)'s, as ItJ~ OIU dett:rmilled and verified_ ACT concedes that practices 1ik", this that
      were init.i~ted by the prior management of ACT'. p"rent company wcrc _,omctimcs too info!"!11al
      and, therefore, not con~iRtcnt with applicable JCderal re gulalions.

               _;I,(T ha, [!Lad" seveml significant changes to institutional policies and operatious to
      lldurt:ss this problem. Fir~t, in 2000, ACT engaged tht: services of Glubal Fillilllda! Aid
      Servicl's, dJl experienced third-party senicer, to handle k,:;y ~spects of ACT's draw down and
      disbUl'semelll otTitle IV funds. Global ddt:rmint:s each student', di gibility to rec eive Title IV
      t'unds, calculates caeh ~tlldent's need and awards their Title IV aid, prepares each Title IV funds
      request to ED, rc~eivcs lht: Title IV lunds from FD, llnU hundles all related Titl~ IV ~!l~h
      Tmln~f',~lllent functions_ (;lohai provide~ these ~amc ~er\'ic.e~ to many dozen.q of other

      institution~, and ACT bcli~ves that Glub,ll is genernlly regarded liS one of1he most prolessional
      and re~peeted .,ervieers in the \:ountry.

             In uddition. ACT impll:'mt:nll:'d n~\." proct:uurt:s in 2002, 'I"J ~J1han~~u th~m furtht:r in
      2003. whkh hav~ dr.nnalku.l1y r~dll<:"U th" liTlle lap"" Ixtw~~rI thl:' Jat~ Titlt: IV rUl1d~ ilr~ Jr<lwn
      down and th~ date those funds are credited to students' accounts.

               ACT's current policy is thut FeJ~rul I'dl Grun( [llnd~ unJ cilmpus-bused Ti(l ~ IV funJs
      not he Jruwn down and transferred In the institution's operating account until thDS<: funds havc
      been crediTed 10 studcnts' accounts_ Whcn Glohal dctcrmin ~ s that the student is ciigible for thc
      disbursement oft'tlnds, it creates a roster indkatin ~ thl;' Sllldelll's nam e and amount ofPeli or
      camplis-bnsed funds <;~heduled In he dishur<:ed_ The ro~ter i~ transmitted to the in~titution, and
      the institution credits thc filllds tD th~ student's aCCQum. CDntirmution that the funds havc becn
      ~r"di I~J is tra"'lrLilleu I() GJuhaJ, which draws duwlJ th~ fUIlds al that time_ See I-:xhihil 2-C tilr
      current procedurcs and related tmining mmerials. Global has implemented this pDlicy for ACT,
      whkh dimimlle. lh., possibilil~' lh"llhe [ulUls wOlllJ ,il in the in,lilulion', 'T~"ount for ~m und\l~
      period beforc being disbursed to smdcnts' accounts. Beginning in July 2003, ACI and Global
      will p!'Oces.~ federal Direct I.oan funds in the &<Ime mann~ r as pdl and campu~-has e d fund<;,

               An analysis ofTitlc IV funds trun:;lj~lion~ during Cltl<:ndar y~llr 2002 d\:monstratc~ lhut,
      L,xcc'pt fur \Tr~' [c;". inslanceS, Tille J V f~llds w"r" distributcd to students' aceolluts within thrlOc
      busine~, days of their r~<:",ipllrom rD_ Th~ ii)ll(}wing amilysi~ i~ J(lr a ~"mrk of21l randomly
      selected students from th~ population of approximau1y 2,000 studmts who r¢c.eived Title IV
      funds in calendar year 2002, These 211 SIlHknts had 1,133 transactiuns (en.xlits of Tille IV f\lnd~
      t() ~CC"Ullt,), Ofthme 1,133 tratlsactio!ls, 97.5'!1o (1.105 transactions) were creditcd to the
      ~tlldents' account, in thre~ business days or 1t:s~, ami another 2% (22 transactions) were credited
      to stud~nts' accounts i'l rll~H tll "'ven day,_ Only six lran,octions, r~.pr~$nting 0_5% or Ihe lot,d
      trallsactioT1~, were crcditeJ to studenl~' accounts after more than sn-tn day;;, Allachtd as Exhibit




                                                        _ 15 -




ED-OIG/A04-B0019                         FINAL REPORT                                           Page 47 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT


       2-D b a spr;;:aJhll~t:l dUCulT)"'llling tht: numb<:!- of uay~ bt:lWl:t'Il thl: uato: the funds w ere rec d veu
       and the date they WI:Ie ~n;uikJ to the~t: ~llld~nl:l' ~~counb.

                 With r~~~l't to th~ s~cilic recommendations mude in the Druft Audit Report. ACT
       reque~ts   the OlCi·s guidance with respect to placing Title IV funds in an interest-bearing al'l'l.Jlmt,
       gil-·cn thc likely amount ofinterest to be earned, as described above (Recommendation 2.2).
       Sub&equm t to the audit, ACT lms implemented pT(lccdurc~ to ensure that Tille TV filllds are
       disburs~d to stlldt nt accounts within three bu~inc~~ uay" rollowing th", J"t~ th" rl.lrnb "n,
       rt ceived (Rt commenuatiun 2.3). Finally, with respect to Recommendations 2.1 mId 2.4, ACT
       wishes 10 emph;c>ize that the Draft Audit Report describes past procedures and a problem that
       went ba.ck a.~ tar as five years ago. ACT ha~ t<lk<n numnous step~ to revise its practices,
       including the retention of a respected thiId-paJ1'y ser.-ieer, to hdp administer its Title IV funds
       appropriatd yand to hdp ensure these past practiccs will not continue. For those r~~~ons, ACT
       docs not hdicve that it should be placed on reimbursernetlt, or that its Title lV pm1ieipation
       should be limitnl. >l!spcndcd or terminated, and ACT rel[lI<;:~~ that those rccommendatiotlS be
       remo\·cd from tht Final Audit Report.




                                                             - j(j -




ED-OIG/A04-B0019                            FINAL REPORT                                              Page 48 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



      FindiD~   [\0. 3:        :\CT   Impropcrl~' I)i~buned   Tille IV Fund!   to) hl~igibl e    Students


               Finding N o. 3 s\;;lIes thai AC T im pro per!)· di.i bursai TItle IV fund s 10 16 sludem s, for
      lour di fferent reascmlO. ACT will addles:; c<l.ch or the four groups stp!lltllO;:iy.


              A.          L)i~burse mems   More Than 9Q p.,\ys After Stud~ n! '~   La.~t   Date 9f A lleod anc~

              The Dr:Jf\ Aud it Report cilcs ble disbulXmenl..S [ur eigtu srudeuts and ret.'Omme nds th at a
      total of 52 5,O ~ 1 be returned 10 ED. These ~tudents are exampl es of tile procl:dural weakness at
      ACT identified bylhe 010 in Fi nding No. 2 above. That is, in vinually aU ofthcsc case3, tm
      stuck n! was enrolled and eligible frn: these Title lV funtls at the time the funds We re d ra wn down
      from ED. but lho:re w"d..~ a delay in credili ng the fWlds 10 thc studen!':; Il.CCOIIDI. Scver.1l of these
      ,rodents complclcd their program at ACT and graduale d. following i5 all e:<plw:mtiOll of tile
      circWtlstsnccs sUJl"ounding each student.


                          I.

                       ACT records indicate S I ,294 for an Urumbsidizcd f ederal Direct SlaITord Loan
      was drllWfl dov.-n MiII"l:h 7, 2000 and S2,586 in atltli tionnl l ~nsubsidizcd loan funds ~ d l"ll.wn
      down March 14, 2000 . ("Ille remaining amc>u!lt of lhe quemioned eost for th is student is Ihe
      origination fcc o n the loan, riot received by the ~ch ool. ) The studcm graduated May 12, :2000,
      <lnd thus her lilSt day o f atte ndanc~ was May 12. ::000.

                     This studeru was cligible for the $3,880 in ques1ioned Title IV funds when they
       were drawn do wn. which was w~lI prior to the student's last day of attendance.

                       A subsequent review of the student 's accOUJII ~vt31cd that Ihe a bove indieated
       funds had nOI b~1I ~miited to the StUdem's acwum. lllC e rror WItS rectified December 28, 2000
       (posting datel wilh (I. tn.l.ls3ction date of Dcecmbcr 1, 2000. which was adm ittedly m ore than 90
       days after the student's last date of alleooancc.


                          2.
                       A CT rt:l:ords indicate S I ,273 .00 fot a Subsidiz~ Di rect S tafford Loan was drawn
       down Se ptember 21. 2000. Several months later. the stude!lt withdrew from $<::0001, with a drop
       determinatio n d ille nf M~reh IJ, 200 1 and a last date of J.ttendan ~c of February 23, 200 1.

                         Thus, this student was eligible for the $ 1;273 in qucstio nai Title IV fund s wben
       they were d ra ...n down , which W"lIS well Flrior to tM student' s last dalC of auendance.

                         A subsequent review of the student' s account revealed that the above indiC.lted
       funds had nu t oocn credited to !h~ 5tudent's occuunt. The errur was rectified April JO, 200 I
                                                   or
       (posting date) wl lh a 1fan5a'tioll dale April 1,2001. This was within 90 days of th", lihulenl's
       last date of attc: ndance.


                                                            • 17 _




ED-OIG/A04-B0019                             FINAL REPORT                                             Page 49 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



                         3,

                         ACT records indicatc the followin!; lo an fumb we re drawn down on behalf of this
     studem :



                i-
                        Sl}RSlDrzEDlDIROCT':i T .... ffQ P;O
                              Date          ,       Amount
                                                                  I   ~




                                                                                  Date        ,
                                                                                               ,
                                                                          C:-.ISL;OSIDlzto!DIRI:.- cr ST.... H ORD
                                                                                                       Amount
                              9/3/99                 $848                       ')131')9               $ \,293
                          12127/99                   .~849                    12fl 1199               $ 1,294
                           3/14/00                   '849                     311 4100                 $ 1 ,29~



     '!be student be gEUl ciaSSHKlm attendance: August 2, 1999 Md dropped March 17, 2000 with a last
     Jay o f attendance of March 8, 2000. The ~lud~nt re -enter~d school August 5, 2000, and
     graduated Au gu~t 10, 2000 with a last day of attendance of A UKust 10, 2000.

                      rtU!! student \'?$ eli gible (Of the nmd~ drnvoTI do wn on September .1. 1999 nod
     D1:I:emb<:r 27, 1999 (totali ng S4,284), which was well befol'<; the ~nJdC:f1{' s drop date o r Mareh
     11.2000 and LDA of March 8, 2000.

                   There was a delay in crediting this $4,284 to the student 's account , as fo llows, bUl
     these funds were eventually           rut
                                   credited to his acco unt:

                        SUOSlDtZEDlDtll.ECT S TAffORD                      UNSUBSIOIZEo!DlRECT STAl'I'ORD  !
                     Po st Date  Trans Date       Amount
                                                                      ,   Post Date  TllUls Dale   Amount
                      6/1210 1           9ii 0199        SS48             4120101       9131 99
                                                                                                        ,
                                                                                                 , $1,293
                      511210 1       I   12'27/99        SS49
                                                                      i   4120/01     12121199          i
                                                                                                   $ 1,294



              The add itiOOll.\ $1, I ~3 in Sutforrl loans that W3S drawn uO\\'"11 March 14 ,2000 was
     c redited 10 the student ' s accoun! ~ follow~:


                '---n:::"
                       SU¥"C8;,1D~'""~DI,¥:D=lR::E"CT
                                                    2ScT'iAC""O"RD=::::--t--.:'UNSljBSJ DIz.r:nlD IREcrSr .... HQRD
                I Post Date            T rans Date            AmouL\t       P"';'I Date:   Trans Dale ! Amount
                      61' 1210 1         3JI4100         5&49              412010 1        3114100          $ 1.294


                    ACT ackno wleuge~ (hat the student was nOI eli!;ible fo r the $2,14] drawn down
      Mar~h  14.2000. However. it wi shes to po im out thilt the stucicnt regained eligibility for th e
      funds upon le-erucring AuguSt $, 20 00, and the stud..:nt suecc:ssfull l" compJeteoJ 1m: prugram
      August to, 2000.




                                                                - 18-




ED-OIG/A04-B0019                                    FINAL REPORT                                             Page 50 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



                      4.

                       ACT ro:ords jpdil:;ue $30 in SEOG rund~ were dfllWIl down March ZO, 200 1 and
      SSg) in P~ll funds were dnwn dov.'ll Apri l 19,2001. (LI10s/: amounts. plus $10 in innitutillllal
      contrib uli(m fo r the federal SEOG fwnb , L"w l 1923 .) The $30 in SEOO funds were credited 10
      the student' S account April S. 200 1 (post ilate) and a IranSll(:tion date of March 20. 2001 . The
      Pel! funds were credited to lhe student's ()C;count April 27,2001 (post dIlle) and 3 tran$3clio n date
      of April 19. 2001.

                        TIle stll<:il:nt graduat ed October 30, 2000 wi th an LDA of" October 27, 2000. The
      in ~tinnion !lckn()wiedges that the $913 in Tid.-: IV funds (SEOG federal share of 530 and Pell uf
      S8 HJ) W<!!re dr:l wn down mo~ !han 90 days after the s lUll.!cnl gliXI.uat~ from IK: r pw g,ram of
      stud y.

                      s.
                       It 3.ppcars the 010 may have      mi~intcrprelcd   Ihis student' s file, a!i it does nOi
      I\pPCar to be :1 case of a latc dis buP.;t:ment.                        .

                      AlT records indicate that 530 in SEOG funds (federal Cllpital contribution) wen:
      drawn July 6, 2000 and lUl additional $30 in SEOG fund:! wcr~ drawn July 11, 2000. (Those
      WT\llunt3 plus 520 in institu liollal uUl ld ,iull w lltributio n IOml the S80 in questioned costs.)

                      ACT records indicate that on July 6. 2000 (Imnsaction date) with a posting date of
      July ! 3, 200U, th~ ~iudent's 3.ceounr was incorrectl y credit~d with $1 20 in SEOa FCC desc ribed
      as " FSEOG 2000·01." O n July 13, 2000 (trnnsaction date) with a posting date of Jul y 13, 2000,
      the sc hoolilyain incorrectly credited the ~rudcnt's account with S120 in S EOG FCC. d~scri bed as
      - FS EOG 1999-00.-

                    The above t WO erroneou s entries (award years and am ounts) were reversed on
      Dctob n I. 2000 (transaction date) , and the correct eolTy (If $60 in S EOG FCC (l 999·2000) W a')
      mad~ on Octo ber j, 2000 (transaction d:ne).

                       Wi lh f~'Spc:"t tn the sp""'ifk rc.,soll r... r ",hio; h Ib:s ~tu4c nl was cttcd. ACT wishes
      to pair.! out that the student began classroom attendance June 12, 2000 and dropped July 31.
      2000 with 11 last datc of attendance of June 26, 2000. Therefore, the SCQG fund s drawn July (j
      and I I, 2000 an dcrcdited 10 thc student' s ~~ ount on July 6 ar.d I] , 2000 were disbursed before
      the !>tmlcnf s dro p date (Ju ly) l , 2(00) and within 90 d3}'S or hcr last day or attendance (June 26.
      2000).


                       6.

                    ACf rewrds indIcate S 12 74 in Subsidized Di!ttt Stafford and $ 1.940 in
       UnsubJidized D irect StalTord loans were drawll down September 21, 2000. nle funds w.:re
       Unl.wn in anti cipation of first loan di sb ursements due to the student. TIle ~tudent began
       classroom attendance lul y 24, 2000, dropped January ! S, 200 1 with a last date of atte nd:mce of
       [kccn;ber 2'1. 2000, Ic-cnlertd August 20. 2001, and graduuh:d Octobe r 19. 2001.


                                                           . l'i -




ED-OIG/A04-B0019                            FINAL REPORT                                              Page 51 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



                        The student 1""'$ thus eligible for these furnb ",hen tney were drawTI do wn. A
                            or
      subsequent rev iew the snidcnt's account revea led that the abov~ funds had not been credited
      to the student·.q account. The funds were credited to the ~luJenl' s acco unt April 30. 2001 (post
      uate ) with II tran5aClion date cfApril 1,200 1. nus W<lS priur IU the student' s ultimate last date
      cf aUcndancc. her graduation date of October 19.2001.


                       7.
                       A CT reco rds indicate the stucicnt began classroom attendance at the Riverdale.
      Georgia campus of ACT and sub~equently trl1nrlerrcd 10 the Adanla, Georgi" main camp~ The
      location." are Rpprox im ately 20 miles apart. Student account ledgers and alte ndilnCe records \1IOC
      mainUl ined at both campuses. The studtnl's ledger :!Ccounts !'t1l"1 the fullowing Title IV
      tran!;llctio ns:

                                                  R1V ERO .... LJ;:C .... MPUS
                Pro rum               Dtaw Date         Post Dale                 i lans Date      Amount
             fiEOG FCC               11112199         11124199               11 / 12199         $3.
             Pell                    11112199         11124/99               11112199           $ 1 041
             S, b                    1211J/99         12/18199               12113199           $8411
             !'ell                      •             11/2101                111100             $1 042
              S, b               !   JnlOO            3/9/00                 317100             S848 '
             Ullsub              ,21 16100            1/310 \                    12/1/00        $1,293
                                 ! 3nf(j~
              Unsub
              Unsub                    ••
                                                    I IJJJQ I
                                                      1111210 1
                                                                                 1211100
                                                                                 1211if01       ""
                                                                                                 S849




               •      Adju sting Entry as a result of Pell reconciliation
               ••     Refun d ]XIid to ED
               t      RevelSing £ntry (Sub)
               It     Revers ing Entry (Unsub)

              The combined tl'lll1saetions at the RivC'rdnle Elild At lanta. C ilInPUS~s resulted ill th ~ student
       receiving tlte fo !!owing Title IV funds amounts:


                                                             ·20·




ED-OIG/A04-B0019                             FINAL REPORT                                               Page 52 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT




                                 SEOG FCC
                                 Pell
                                         -
                                 Subsidized Stafford
                                 Unsu bsidized Stafford
                                                               $ M
                                                                  Amount

                                                               $3.12:;
                                                               $2.545
                                                               $1.737


                        The student began classroom anelldance N)Vernber J. 1999 81 the Riverdale
      t:a.mpus a nd atlende<l. thaI campus throu£h March 10.2000. The s tudell t (Utended the Allam a
      eam pus M:ll'Ch 1:;, 2000 t1u'ough his graduation dale uf July 2~. 2000. 1lle ' lUdellt d id nol
       in lenupt his attend:mce 01 ei lherc:un pus. The " Drop" d e.<ignation al the Ri verda le cam pu!!
       refl ected the student' s transfer 10 the Atlanta o::unpus.

                       The SEOO ($ 60), Pell ($3,125), and Subsidized Stafford ($2,!i 4~J were credi ted
      to the student' s account p romptl y and befo re the s tudcnt' ~ last date of a ttendance. ," CT requests
      I h al lhe~e amoun~ be ddeted from the Final A o,idit Rcpon.


                      The StudCflt WM also eligible for the $ 1.7]7 in UnSllbsid ized Siafford funds wnen
      th ey we re drawn do wn in February and Milich 2000, whidl wa.s v.~iJ berOfe the student 'S
      graduation date and JItSI cbte or attendance.


                       8.

                        ACf believes the Draft Audit Report di d oot take into t:onsideration an
       Unsubsidized Direc t S tafford Loan reconc iliation adj usIIT.l:II1 in the a/llOWlt ofS I .294 ind icated
       by 9 t. ansae:tion date o f 111100 elltered 11/ 1]/0 1. This Irll.:lsaccion i, the ftc$!. enuy o n lhe
       student' S ledger card. and is a r=ersaJ. o f tile 1/ 1810 1 (transaction dale) entry identified as
       "Oirect L lIsub 1 9~-OO" in me flIIlOunt or $ l ,294. The student 's account indicates total
       Unsub3idized Statford Lo an credits. net of the rceoncilia1:on adj uStment, of S2.588. TIlis amount
       corre~ponds to the ~'2 .6 66 ( gross) UIlSubsidi" u Juan ammlllt indi cate d o n the NSLDS Loan
       Summary. s ~ Exhi bit ) . A for a copy o f the ledg(f card :md NSI.D S Loan Summary for this
       student.

                        Tn summ;uy . ru; nolcd a bove, ACT bel ieve~ that SCPl( of the questioned funds for
       lneu e igh t stude n'" "'ere timely and pro~rlr di sbur:sed, and 5hould be delclCd {rom thc f iual
       Audit Re['<lrt ACf ru.$also Ucmonstrat~d th:lt the cited ~tudents ....'CTC enrolled and eligible ( Of
       most of the n< maininli funds at the time th~ funds were da wn down from ED. amI til e nnly
       I'lrohlem wa s the institution' s tardiness in actually crediting the funds to the students' ac co unts ,
       The institution suggest~ thnt, in these circumstances, it not be ptlUllized in both Finding N o. 2
       and ;lgain ill Finding N o. 3 for the same i s~uc , and reqllesls Ihat these liability amountll be
       deleted from Finding N o. J in the Final Aud it Repon .




                                                         · 21 .




ED-OIG/A04-B0019                          FINAL REPORT                                           Page 53 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT




              1:1.    oisbursemenH After Student ' s Last Da le of Attendance

              The DraA Audit R epo!l citC5 ACT for mak..i~ second Direel l oan d isb\Jrscmenls 10 two
      sWdents aller their last date of iluendanee cvr:n thou gh the studellts wi lhdrcw before the: end of
      the puyment period for which the loan di sbur:sement was appli c"bk Following i~ 1lfl e'lpJanll.tion
      of the circwnstance~ for each o f these students.


                      1.

                       Thi, student was awarded a Subsidized Direcl Stafford Loan for her seven ·
      month p rogram of stud y. The first d isilurscment o f S I ,274 i~ nO( in question. 1be student
      completed onc half of her program February 22, 2001 . The student withdrew from !he institution
      with Ii dro p deteflTlination dilte of AUiu st 22, 2001 .lIld a Ia.~t date of attendance of June 1, 2001.

                          AGT records indicate that 'S I .273 for a Subsidized Direct Stafford lo H.II was
      drawn a nwn .TUM l. 200 1 and inte nded for payment o f 1M ~econd disbur~m cnt On the student 's
      loan . The funds in ljuestioTl ....ere credited to the student's account July 2, 2001 (po~t date ) and a
      trarISaI;tioll ciato: uf June 1,200 1. The Sludent was eli l:ibk for the St:Co:xl disbursement when it
      was drawn down on June 1, 200 1, but had withdJa .....T\ b y the dille the disbuneillenl wu e red ited
      to her acco unt.

                      The student eventually relUmoo to sc hool and graduated Maro;:h I), 200J. Thu.'I.,
       she was u ltimate ly e nlitleJ tc the arnoWlt of me second d isbu rsemCl'll, Jod ACT requests that. the
       DIG not include thi5 as a reco mmended liabili ty amoW'lt.


                       2.

                       The :;tudent was awarded a Subsidized Direct Stafford loan and alll..'n~ubs idized
       DireCt Stafford Loan for her seven-month program of study . ' IlI( 11m disbursements of each
       loan arc not in '1l1l\'II;on. The 5tudent eomp lel"J un. h:>lf o f ho:r progrom Oc<:cmher J. 1999. 11><;:
       stud eot withdrew from !he illSlirution with :l d rop d ...1enninario " d ate of January 10.2000 and an
       LO A ofDe<;embef 20,1999.

                       ACT records indicate $849 for a Subsidized Direct StaffonlllOd SI ,293 for an
       Unsubsid ized Direct Stafford were dro .....t1 down DeeembcY 20 , 19 99 aIId ...."t ~ inlellded tor the
       o;econd di ~bUIOemcnts 00 the ~tudent'~ l o ao~.

                          "T"I\e funds in que~tion were credited to the student's accollnt on January I I. 2000
       (poit dale) and a lr.lnSaction da~ ofDcc.:mbcr 20. 1       m . TI lc s tuden t was e1igibk fo r the seoomJ
       disbllN:emen t on eltCh loan ....ben lltcy werc drawn  oown     0 0 December 20. 1999, but had
       wit hdrawn by the date the loan amount s were cred ited to her IICCOUOt. As whh the students in the
       pre ~eding group, AC T [equ~stg that tile recommended liability amoum for Lhh ~Iudent be deleted
       ill t!'le Fin.al Aud it RepoI1.



                                                         - 22 ,




ED-OIG/A04-B0019                          FINAL REPORT                                           Page 54 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT




              c.      Missipg file
              The Dl'1Ift Audit R epon. nx:ommmds a liabil ity for aU of tht: Title   rv funds received 00
       !>®aIr of one student                 who sc filc ACT w~ UIUlble to locate during the site visit.
       ACT has subsequt:ntly locate d the student's file. ADd It copy of it is attached Ill! Exhibit J.B.
       ACT requem th3t. this student::lnd. the associllled lil!obility amount be n:moved from the Final
       Audit Repln.



               D.      Student:!   Who Did N91 Pus the A bility·!Il-Benefit Test
               The Draft Audit Repon recommends a liability for Title IV fund3 rceeived on behalf of
       five students fot whom ACT could not provide documentatitm that the student had passed the
       WO!lderiic ability·to-benefit test..

                 ACT Iw revT.ew\:.d \he files of nch ofth~ studen~. One of the studen~
                   received a G.E.D. diploma..:1 copy of which is attached. as &rubl! 3·e. For that
        reaso n, the~ sho uld be no liability for this student.

                 rOT the remaining four studc:nts.. ACT has been unable to dccument that the !o1Udent
        passed the A Tn test. However, three of these students
                             completed their PItlgrEm of study and graduated from ACT. Attached as
        Exhibit 3·D are copies of the academic tranSCripts for thc:sc.lhree students, illlticating their
        completion of program and graduation.. ED has a Iongstandin& practice o f lXllas."lessing liability
        against an institution for a student who was improperly admitted wtder the ability.to-henefit
        option if the srudent ultimately completed his or het educational tr08J1UT1 and graduated from the
        institution.. It is ACT s WlderstaDding Wt the re:.soning bchllld !his approach is thai. if a srudcnt
        completes !he educational program, !hen by defini tion he Of she had the llbililY to benefit frcm
        the program . "OIls practice has been used many times by ED. Therefore, ACT requests that the
        O[G not recommend. any repaym=t liability in the final Audit Repon for these remaining four
        students.

                With respect to the OIG's two recorrtmc:ndations oonccming Finding No.3 of the Draft
        Audit Report, ACT has addressed above each of thc specific recommended liability amounts
        (Recommendation 3.1). Recommendation).1 s lates that ACT should address confus ion among
        the scheal's financial aid persoone:l regarding their resporu;ibillties to en.wxe that ineligible
        student'! do no t receive Title IV disbUfscments. As ~ed dse-.vhere: in this response , ACT has
        implemented various new procedures and has p£cv ided additional training to its!tlltf, to enslrC
        tM Title IV fund~ are not disbuDed 10 iru:1i!;ihle students.

                  In add ition, ACT wauld like to call the Iltl ention orlbe: Q IG to !he facl that the
         institution' s 3Mual compliance audit for the fiscal year ending December 3 1,2002, which was
         recently completed. did no t identify any illSlllIl~s of nofl-<:o l'llpliance during 2002 for any of the
         issues for whicb students ~rc ci ted in Finding No . J of thc Draft Audit Rcpon..



                                                           -n -




ED-OIG/A04-B0019                         FINAL REPORT                                          Page 55 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



                ]·inally. ACT wishe, to advise the Ole; that ACT is di~continuing use of ahilitY-lo~bendil
       LC,ling for ildmitting nc"v slud",nLs. EHi:ctive June I, 2003, n~w appliean~ to ACT will only be
       admittcd it they havc a high .~chool dipiollm or G.E.D. e<:rtift~ut<:.




                                                      - 24-




ED-OIG/A04-B0019                       FINAL REPORT                                       Page 56 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



       Finding No.4:       ACT Did Not Reconeile Oireet Loan Funds


              The Draft Audit Report states that ACT did not reconcile its 1998-99 und 1999-2000
       Direct Loan av.·ard, on a monthly hasis_

                 ACT agrees that during that period of time, it wss not reconciling it.'J Direct Loan
       a,,~()unl" on a monlhly ba.~i". Ilow"yt:r, ~ub"t:'ll.L"nt to lhatlime -- and before tht: O[C, h" gan its
       audit --- ACT initiated a reconciliation of its Direct Loan fimds. As a result of that n::conciiiation,
       ACT n::lUrned exc ess cash funds to ED, as a~koowledged in the Draft i\udit Rc:port.

              The enclosed documents TC~eived fmOl En 011 JIJne 2, 2003 (see Exhibit 4-A) eonlirm an
       "m!ing cash balance [or the I 998-99 year of £0.50. a final figure ACT is V"I)' pleused with.

              The enclosed FD Direci School Loan Aecollot Statement dated April 10, 20U2 (see
       Exhibit 4-B) confinns an ending cash bHlanc", for the 1999-2000 ycar of negative $3.00, meanin g
       ACT had undrawn Direct Loan cash needs of $3_00_

               In April 2000, ACr engaged Global hnan~i'll Aid Services (0 ~rform a variety 01' Title
       IV cash mamlgement fundions for the school. One of the services Global performs Orl khalf of
       ACT is tbe recOrlciIintion of Direct T.oan transactions_ Ci-Illhal hegan conducting complete
       monthly reconciliatiOils of Direct Loan funds at the be giuning of the 2000-01 school year, and
       continues to do so to this date. GlobHI performs the r"cunciliation, n:purts t() ACT management,
       .uK! work~ uir"ctly with ED on any questions, Thc Draft Audit Report confirms that Glohal has
       policie~ and procedures in place for rccondlin~ ACJ"s Dir",,-,t Loan limds un" monthly ha~is,
       and that Global was following its procedures and conducting the reconciliations a~ rcquired.

               ACT is hnppy to emphasize that the (,dlllre to reconcile Direct Loan funds on a monthly
       basis is a problem of the past that ha~ heen r~~lified.

                 Th~ first reconunendation in tho: Drat) Audi, Ro:porl conc",rning FinJing No.4 is for ACT
       to train personnel in lite reconciliation requirements of the Dircct r.ofln program_ ACT \X'rsolln e!
       are now filily aware of th e monthly reconciliation re'luirem"l1lS, ,md the sloI.frp<:rfurming thc
       reconciliation (ie_, Globnli are fully trained, very experienced find very cnpahl ~ to pt:rfDrm lhos~
       dUli<.:s, Th<.: sccond rec<)rnmendatiOil for l·inding No_ ,1 is tllflt ACT should monilor ;1.< third_party
       servic~.r"s p<Cl'fol'lnallcc [0 ~nS\lrc C()ntinll~d compli"ncc 'Nilh program rC'luir~ments. ACT works
       do~cly with Global un u daily basis. \\.,'hi(e ACT does !lot itself audit (ilohal's Direci LO:otll
       r~wncili,llion~_ it does monitor Global's pcrformance ofthc rcconciliations, which continue t(l
       show that the acconnts arc being properly reconcil~d.




                                                         - 25 -




ED-OIG/A04-B0019                         FINAL REPORT                                           Page 57 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



     Finding No.5:           ACT Failed 1(1 I>roperl~' Calculate \lr Make RcfIlAU ~ Fur StUUCflt~ Who
                             Whbdnw


             The Utaft Audit Repolt , tntel; that ACT failed to ma k.; refunds for II studentS. I:!!ld
     illCOrrcctiy calc ulated refunds for two other students. who w ithdrew during ac ademi c ~'e ars J 999·
     2(JOO nnd 2000-0 1, nod that ACT owe; ED $10.112 in re funds for these students.

               AC T ha s C<ll'efully ~viewe d the filts of the I] '>Iud enl! identifi ed by the OIG. Fo r each
     ()j' the sroden ts, ACT has perfonned a new Return to Title IV (RlT4) calc ul ation.


                       I.

                      The recalculilled R2T4 indi cales II return of funds in the amount of $988. 75. ACT
     records indicat.c a R2T4 was calculilted 11 /30/01 in the amount of $9lH!. 7S to be returm:d to the
     Pell Grant PWljrarn. For unkllOwn reasons. the [WUU; were nol returned :11 the time of the
     c., kuialion. S ublCquend y. the funds were re turned on 6i I7'-03. The relev3nt documentation for
     this student is locluded in Exhibit :i-A.


                       2.
                       1be recal c\llated R2T4 calCl1lation ( EKhibit 5-1;1) indicates the student atte nded
      6S'Y.   or the payme nt period and therefore e...med I()()% of the fUnds rcceived.


                        3.

                         The r=alcuIated R2T4 inc ludes Title IV :tid that "could hnve been disbursed" in
      the amounts of $ ] ,940 and 51 ,274 in Stafford loans, which were electronically originated
      12l2()!()(). prio r to the student' s with<irawill da te. Thus, thi s student earned 100% of the funds
      J isbw=d. The document" folr \his nudent are included in Exhibit j ·C.


                        4.

                      ACT records ind ic:m: II. RZT4 was calculated 1"])11J01 in t~ amounl of
      S I 267.30. Fo r unknown reasons, the funds ....ve 001 n::rumcd at the time of calculillio n. The
      fundR wen; rerumed 6116103 (EJthihit S-D).


                        ,.
                      The recalculluxl R2T4 includ&s ntle IV ;aioJ \hat "~ ol.lld h.!ve been disbursed" in
      the «mounts of 51,940 and 51,274 in Stafford loans, which were electronically originated
      2120/01, prior to the student's Jilst date of :mendnncc. Thus. thi5 student earned 100% of the
      fUflds disbursed. ~ documents for this StUdent are included in Ex hibit 5-E..


                                                         - 26-




ED-OIG/A04-B0019                           FINAL REPORT                                          Page 58 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT




                     6.

                      The re calculated R2T4 i ndud~ Title IV a id that "co utd have been di~bursed~ in
      the amounlS of S I,l)40 and $ 1,274 in Stafford loans, which were e lectronically originated
       Wl1 ~fOO, prior to the student' s LOA. 111e ~cou!d have been disbursed" amount also includt::;
      $60 in SF..OG. The calculation indicates lhe student earned 100% of funds disbursed. The
      doc uments fo r du&student arc included in Exhibit S·F.


                      7.

                        The rttlliculaled R2T4 includes Tille IV aid that "could have been disblU'Sed" in
      the wnounti ofSI,940 and SI ,274 in Stafford loans, .....hieh we're electronically wigillllted 2iSlOl,
      pri nr t(l the studcr1t's LDA. Thus, thi s student earned 100% of the funds di sbursed. The
      do cumcnl~ for lruS student IICC included in Exhibit joG.



                      K.

                      The s.chooL's records inditatc that its thl rd-par1 y strvker (Global) pcrfonnetl a
      R2T4 calcullltion on :1/1210 1, which indicated no ~ tum of funds . This calcul:nion incllJded Title
      IV aid that ··could hllve been di~bU!".>ed" in the amounts of$1 ,274 In Subsidized Stafford o.od
      $2.925 in PU IS. which vrc:Te electronically originated 2/15/01 and 2f19101 . respectively.

                     Current infoM'ul.Iion indil:<ltes [he PLUS was denied. presumably after the G lobal
      cakulatioo. The rtealculated R2T4 thus excludes pLUS as a "could have been disbursed"
      amuunt, which rt sult:! in 5842.80 [0 be rt:tumed to the rell Grant program. The funds 'were
      returned 611 ~U3 . The dOCl.Iffients for th i~ 'tIldent are included in Exhibit S·H.


                       9.

                          ACTs records indicate th at liS third.party service! (Global) performed an R..."Tf4
       cilltulation (E~h ibit j.t) on 2151O [ which requift;d 3 Return [0 T ille rv 0 £$2,304. For unknown
       ['(;&loons, the fim ds were nOI returned at that time. The $tudent re· enro lled o n 8/2010 I. and
       therdo re reg ained eligibility for the funds that shol.L[d have been returned. and gradullt ed on
       101\9/01.


                       10.

                       ACT's records indicate Ih31 II Slaffo rd loan in the amoun t o f S 1,214 was
       elcctronically originated 2/8/0 1 lind a PLUS loan io the amount of 52,924 ....-as electronicaU),
       originated 2/1 210 1. In additio n, a Pel! Grant for $1,65 0 and a SEOG for $ 100 were disbursed
       prior to the ~tuden t 'g last d ate of attendance (3!2JfO I ). A R2T4 calculatil:m utJ!izing th~ above
       activity would have indiL<l ted the lmidenl had earned 1000;" of the funds disbursed.



                                                         · 27,




ED-OIG/A04-B0019                         FINAL REPORT                                          Page 59 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



                     Current infonnntio ll indic;A lcS the PL US loan WdS ultimately denied. The
     recalculated R2T4 excl udes the PLUS from the T ille IV aid tb:!.I "could have been di~" but
     i ndud ~ dLl: Slifford as aid thaI " could ha ve been disbursed" and results in III R2T4 o f $1 S6.J') In
     the ?el! Gcant program. The funds were !1..1umetl 6/ 18/0). lbe document:! for this siudent are
     incJ uJeJ in Exhibit 5-J.


                      II.

                   ACT rccords indicate thc student withdn:w from school n n two prcvious
     occnsions (LDA 11130/00 and LOA 1125101). A R2T4 ca lculllltioll for each of the two prior
     withdrnwals ind icated the studen t earned 100% of the funds di~ .

                    The student last withdrew from school ..... ilh Ill! LDA offil l 5101 . A R2T4
     calculation was performed 711 9/01 and indi cated the ~ tudent hoo. e arned 100<'/0 of the funds
     disbursed for the payment period. lbe rec,alc ulatO)d R2T4 confirmed the st udent earned l00"/e of
     the funds disbursed for th e pa)rnC nt per iod. The documents for Ih is student arc incl uded in
     Exhibit j.K..


                      12.
                      ACT's rewrds indicate /I R2T4 calcLllation was done 6128101 , ..... hich indiclII!N a
      R2T 4 of$ 2. 1J 1.50 WlL:'I requi rc d. ·Ibis amount was returnro to t~ St~fford Loan program. In
      addition to th~ lr:quiro::d RlT4 , the institution rerumcd an !ldditional $1 SO in SEOG fCC.

                       The reca lculated R2T4 confirmed the accuracy of tbr: original calcul ation which
      req uu..-d S2,13 1.50 be K tumed. ·l1lC documents for this Slttdl:m are incl uded in Exhibit j.L


                      13.

                      ACT's ra:o rds ind icate a R2T4 calculation .... as performed 71)10 1. whkh
      ind icated a R2 T4 o r SI ,529.86 Wlii required. This amount ' ....5 returned 10 I~ Stafford 1..oilI1
      program.

                    The recalculated R2T4 confirmed the accurncy of the L1rigi na l calculacloll. The
      documents for Ihis student are included in EJth ibi t 5-M.


                      As a result ufthe R2T4 reca lcu lations for the above )3 students, A CT has now
      paid the additional $3,255.20 for the four students .... hich ACT determined was still due.

               11K Draft Audit Rcpon nales that ACT bas had I ~ I" and unmade refunds in the past.. a
      filet lhal ACT readily admits. ACT hal performed extensive file reviews over a period of several
      years , unde r the direction of ED's Atlanta Case Management Team. to identify additional
      refunds that were oot paid co rrectly and timely. ACT has paid all additional refund amounts




                                                        - 28 -




ED-OIG/A04-B0019                           FINAL REPORT                                          Page 60 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



       identified by tho.I;;: fil;;: r;;:view~, and (he C,)se t.tanagt:l1lent Tearn has dosed th~ compliancc
       audits for ihose years.

                ACT is very pleased 10 report to the OlG that its independ~nt auditor's Title TV
       campi iancc attestation report for ACl"s fiscal reM 2002 iden!i [j..,d (lnly one late rc:fuml and [l()
       unmade refunds in its audit sample_ Therefore, ACT believes, as with c~ rtail1 other issues
       idelltifled in the iJrllft Audit Report, that ACT'~ refund problem is tl prubkm "rthe pa~llhat h<l~
       heen cured.

                As Jil udditional matt:r, ACT would like to infonn the OIG th£ll: it hIlS already been
       lls~~ssed  an mlministrative tiRe by ED's Administrative Actions illld A~pea(s Division for the
       ~eh(){)I's tllilure to pay refimds in ~ til11~1)" manner for the school" s fi~e;11 year.~ ending October
       31. 1999. October 31. 2000, md Odober 31, 2001. and the stub fiscal :{ear period ending
       Deeemhcr 11, 2{)() I. ACT has paid the finc amount as (lgr~eJ to with ED, and that matter is now
       cllls~d. A copy of thc S~tl1cmen( Agreement reflecting closure of that proceeding and pa)'ment
       uf th<: rlll~ ,l[~ a\\<lched (l~ ExllibiL 5-N.

               The[c are three r~eomm endJ.tion~ in the Dnllt At"lit Keport for FimJin ~ ~o ~.
       Recolllmendation 5.1 is that ACT refund to ED 1> J 0, 112 for t!Jt, rdun<h not mad e or made in th"
       incorr~d amoun\. As indicat~d abo\"~ and as >llpportcd hy tile attached docuTTlcnwtion, ACT
       believes that the ~()ITect alllollnt of additional rd'unds due is a total of t3.255 .20 for fOlir
       ,(lalents, which ACT llll~ lully p~id. prior to submitting this response.

               RCCOmr!1ClllhitilJll 5.2 i~ tll~t ACT llllplcJllent policies, procedu:e~ and managcment
       controls to ensure the aeeura:c cnlculutioll of refunds and tl-,.;: timely rcLl.Lrn of suerl funds to ED.
       ACT h"s developed <\nd nu,," loa.~ ill place J"tailed policic~ ilnd procedures for ensuring rdlmds
       arc corrcctly and timel)' lllad ~ . Attached dS Exhibit 3-0 is the Reii.",ds section of ,o\CT's Policies
       ilnd l'roccdur~~ Ivla.nual. which sets forth in deluiltht school's pnx;es."",", in this rcgard. A~ noted
       above, dlle to the impl ement~tioll oftl-,.;: ~ c procedures, ACT was cited for only one late rd'und in
       its 2002 annual Clll1lplianc~ <,uJit.

               Recolllnll'ndation 5.3 is tha.t ED should   ~i1h"r fiJl~   ACT or limil,   .~u'p""d 01 tennimlt~
       ACT" participmio[) ill (Il" Titk IV plO~jillll' clue tu ib fdil",,, tu umh JdllJlJ~. For "II of the
       r~'aSOll~ ~Ll i'orlh above, including mo~t importantly that ACT hns el iminated its refund problem
       and has .dread.,. paid a mh,tantial tin~ tll ED fll[ the ,arne ycars cove red hy the Drafl Alidil
       R~p()]t, ACT h~lie,·e, thai no additional aJverse action ag:~i Ilst it i~ w~ ITanted. ACT rcspGctful!y
       requests that l{ecunU1wndaticln ~.~ b~ r~m(),"ed from lh~ firral A.\ldil Report




                                                          - 29-




ED-OIG/A04-B0019                          FINAL REPORT                                              Page 61 of 62 

ATTACHMENT B – WRITTEN RESPONSE TO THE DRAFT
REPORT



       Finding No.6:       Ac.-T Did Not Demomtrate Administrative Capability


                 In Finding No. (J. th e Draft Audit Rt:port stait:s that, on Ih~ b<!sis of the issues identified in
       I'inding Nos. 1-5, as well as Ahigh turnover in financial aid staff. ACT did not meet ED's
       r<:lJuin:d standards of administrative capability. Finding; No.6 does not include any additinnal
       it~ms thaI are nol included within the other previous findings.


               ACT Im~ mJdrcssed each oftiK: oilier findings abovc. Whi le ACT acknowl edges tlwt it
       had certain i:ldministmtivc and cash management prohlems in tht: past. ACT has abo        \ri~d to
       d~monstr;It~ lhill it has devoted extensive att ention and resources to corrt:ding tht:se prohlems.
       rite problt'lm identified in the Draft Audit Report have heen addre!'lsed and have been eith er
       cmnplctely or largely eDrrected.

                ACT has ~ddre~~ed its past high turnover rait: for finuncial aid staff in two primary ways.
       PirSl, ACT brought in Global Finallci~l Aid S~rvkc~ to perform many of the: financial aid
       functions for th e school. Global i~ a vn;)' ~\ablc company with very experienced stall and an
       extr.:omely low rate: of e:nor. Sc~()nJ, ACT has increused its training of its ovm financ·ial aid
       employ"..,,,,. \0 hdp en~UTe that any mistakes by them <Ire minimi'''L!. n,i~ training has bee:n
       provided hy senior managemcnt at the s~hooL by pers("IIl~1 from ALl'S pare:nt company. and hy
       Gieob.li, and ha~ covered the i",..,s idcntii,cd in tli" Dmft Audit R~r"rt illld many other areas.
       ACI believes that tltis increased training ha~ provided much improved r~sults.

               ACT also believ~s thaI till' r~s\llts of its illlrlllal compliance alldits arc re!cvcmtlo this
       issue. rh~1~e uudit, Shll\" a distinct improvem ent in the magnitLlde and type offinding id emifi",rl
       by th~ auditors. \\'hile not perfect (a~ virhmlly [\<1 ~chool is), ACT's most r~ccnt audits do show
       very marked improvement and a very greatly redueed error mk. furlh<:r attesting to its curre n!
       administrative capability.

                Based Ull the eorrectivc actions thaL iL h~s I~kcn to address the issues identified in roc
       finding> ufthe Draft Audit Re port, and ils ,-,urr~nt capahilities and processes, ACT docs not
       believ~ that it should be limited, sllsp"nlied Or terminated from future participation in the Title IV
       prn g ram~. ACT rCljucslS that Finding No. (j be d iminakd wh~n the OIC. issue s its Final Audit
       R"porl.




                                                           - 30 -




ED-OIG/A04-B0019                          FINAL REPORT                                             Page 62 of 62 

